<html>
<title> - MARKUP OF H.R. 3244, H.CON.RES. 165, H.RES. 169, H.CON.RES. 206, H.CON.RES. 222, H.CON.RES. 211, AND H.CON.RES. 200</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
   MARKUP OF H.R. 3244, H.CON.RES. 165, H.RES. 169, H.CON.RES. 206, 
           H.CON.RES. 222, H.CON.RES. 211, AND H.CON.RES. 200

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, November 9, 1999

                               __________

                           Serial No. 106-96

                               __________

    Printed for the use of the Committee on International Relations




                    U.S. GOVERNMENT PRINTING OFFICE
64-099 CC                   WASHINGTON : 2000 






                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                   Joan I. O'Donnell, Staff Associate




                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H.R. 3244, a bill to combat trafficking of persons, 
  especially into the sex trade, slavery, and slavery-like 
  conditions in the United States and countries around the world 
  through prevention, through prosecution and enforcement against 
  traffickers, and through protection and assistance to victims 
  of trafficking.................................................     1
Markup of H. Con. Res. 165, a concurrent resolution expressing 
  United States policy toward the Slovak Republic................     7
Markup of H. Res. 169, a resolution expressing the sense of the 
  House of Representatives with respect to democracy, free 
  elections, and human rights in the Lao People's Democratic 
  Republic.......................................................    33
Markup of H. Con. Res. 206, a concurrent resolution expressing 
  grave concern regarding armed conflict in the North Caucasus 
  region of the Russian Federation which has resulted in civilian 
  casualties and internally displaced persons, and urging all 
  sides to pursue dialogue for peaceful resolution of the 
  conflict.......................................................     9
Markup of H. Con. Res. 222, a concurrent resolution condemning 
  the assassination of Armenian Prime Minister Vazgen Sargsian 
  and other officials of the Armenian Government and expressing 
  the sense of the Congress in morning this tragic loss of the 
  duty elected leadership of Armenia.............................    14
Markup of H. Con. Res. 211, a concurrent resultion expressing the 
  strong support of the Congress for the recently concluded 
  elections in the Republic of India and urging the President to 
  travel to India................................................    15
Markup of H. Con. Res. 200, a concurrent resolution expressing 
  the strong opposition of Congress to the military coup in 
  Pakistan and calling for a civilian, democratically-elected 
  government to be returned to power in Pakistan.................    18

                                APPENDIX

H.R. 3244........................................................    52
    Amendment to H.R. 3244, offered by Mr. Smith of New Jersey...    97
H. Con. Res. 165.................................................    98
H. Con. Res. 206.................................................   103
    En Bloc Amendment to H. Con. Res. 206, offered by Mr. Smith 
      of New Jersey..............................................   107
H. Con. Res. 222.................................................   109
H. Con. Res. 211.................................................   112
H. Con. Res. 200.................................................   114
    Committee Print (as Reported by the Subcommittee on Asia and 
      the Pacific)...............................................   119
    Amendment in the Nature of a Substitute to the Committee 
      Print of H. Con. Res. 200, offered by Mr. Gejdenson and Mr. 
      Brown of Ohio..............................................   124
H. Res. 169......................................................   128
    Committee Print (as Reported by the Subcommittee on Asia and 
      the Pacific)...............................................   130
    Perfecting Amendment to H. Res. 169, offered by Mr. 
      Radanovich.................................................   134
    Amendment to the Perfecting Amendment, offered by Mr. 
      Bereuter...................................................   137
Prepared statements:
The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations, statement on H.R. 3244..............................   138
The Honorable George P. Radanovich, a Representative in Congress 
  from California, statement of H. Con. Res. 222.................   139




The Honorable Gary L. Ackerman, a Representative in Congress from 
  New York, statement of H. Con. Res. 200........................   140
Additional materials submitted for the record:
Memo to Mr. Gilman from Mr. Bereuter regarding Laos, submitted by 
  Mr. Bereuter...................................................   142





   MARKUP OF H.R. 3244, H.CON.RES. 165, H.RES. 169, H.CON.RES. 206, 
           H.CON.RES. 222, H.CON.RES. 211, AND H.CON.RES. 200

                              ----------                              


                       Tuesday, November 9, 1999

                  House of Representatives,
              Committee on International Relations,
                                           Washington, D.C.
    The Committee met, pursuant to notice, at 4 p.m., in room 
2172 Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order--Members 
please take their seats--pursuant to notice to mark up several 
items of legislative business.
    First item is H.R. 3244 relating to trafficking in humans.
    The Chair lays the bill before the Committee.
    The clerk will report the title of the bill.
    [The information referred to appears in the appendix.]
    Ms. Bloomer. H.R. 3244, a bill to combat trafficking of 
persons, especially into the sex trade, slavery and slavery-
like conditions in the United States and countries around the 
world through prevention, through prosecution and enforcement 
against traffickers and through protection and assistance to 
victims of trafficking.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with.
    The clerk will read the bill for amendment.
    Ms. Bloomer. Be it enacted by the Senate and the House of 
Representatives of the United States of America in Congress 
assembled. Section 1, Short title.
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open to amendment at any point.
    I now recognize the distinguished gentleman from New 
Jersey, Mr. Smith to introduce the bill.
    Mr. Smith. Thank you very much, Mr. Chairman. Mr. Chairman, 
I am pleased that the Committee is meeting today to markup H.R. 
3244, the Trafficking Victims Protection Act of 1999, which I 
introduced yesterday along with the Ranking Member, Mr. 
Gejdenson, and seven other bipartisan cosponsors. This bill 
focuses on the most severe forms of trafficking, on trafficking 
of children into the international sex industry, on sex 
trafficking by force, fraud or coercion and on trafficking into 
slavery and slavery-like practices.
    Each year, Mr. Chairman, up to a million innocent victims, 
of whom the overwhelming majority are women and children, are 
brought by force and/or fraud into the international commercial 
sex industry. Efforts by the U.S. Government, international 
organizations, and others to stop this brutal practice have 
thus far proved unsuccessful.
    Indeed, all the evidence suggests that instances of 
forcible and/or fraudulent sexual trafficking are far more 
numerous than just a few years ago.
    The problem, Mr. Chairman, is not abstract. It shatters the 
lives of real women and children. In Russia, for example, 
traffickers prey on orphanages. In a typical scenario, a 
trafficker will pay an orphanage director approximately $12,000 
to take a group of children on a field trip to a local 
McDonalds, for example. Groups of children will then leave the 
orphanage with the trafficker, never to be seen or heard from 
again.
    It has been estimated by one leader of an NGO that 
approximately $24,000--that is the going price, Mr. Chairman, 
$24,000 per woman, who is trafficked into the United States or 
some other country. The problem is not just overseas. According 
to investigative reports I have received in the tristate area, 
including my home State of New Jersey, there are thousands of 
women involuntarily working. These are women who came to the 
United States in response to advertisements for reputable jobs 
such as waitresses, housekeepers, nannies and the like. They 
were provided passports and visas and transported to the United 
States.
    When they arrived in the U.S., they were told that the jobs 
had already been filled, but they were still indebted for the 
costs of the trip, anywhere from $15,000- to $40,000. Many of 
these helpless women have been forced to work as prostitutes 
until they pay off their debts.
    Part of the problem is that current laws and law 
enforcement strategies in the U.S., as well as in other 
nations, often punish the victims more severely than they 
punish the perpetrators. When a sex-for-hire establishment is 
raided, the women, and sometimes children, in the brothel are 
typically deported if they are not citizens of the country in 
which the establishment is located, without reference to 
whether their participation was voluntary or involuntary and 
without reference to whether they will face retribution or 
other serious harm upon return.
    This not only inflicts further cruelty on the victims, it 
also robs--leaves nobody, I should say, to testify against the 
real criminals and frightens other victims from coming forward.
    My original bill, Mr. Chairman, introduced along with our 
colleague, Marcy Kaptur, focused only on sex trafficking 
because we believe this is the most egregious and the fastest 
growing form of trafficking of persons, and because we wanted 
to include tough penalties against traffickers and against 
governments that are part of the problem rather than part of 
the solution.
    At the strong suggestion of Mr. Gejdenson, the new bill 
recognizes that there are other forms of trafficking, such as 
trafficking into literal slavery or into forms of indentured 
servitude that amount to slavery, and in which trafficked women 
are often subjected to brutal treatment, including rape, that 
call for the same tough approach toward traffickers and the 
same compassion for the victims.
    H.R. 3244 punishes, and I quote, ``severe forms of 
trafficking in persons,'' which are defined as sex trafficking 
with children, sex trafficking induced by force, fraud, or 
coercion, and trafficking of persons into involuntary servitude 
or slave-like conditions by force, fraud, or coercion. This 
legislation seeks the elimination of these gross human rights 
violations by a comprehensive, balanced approach of prevention, 
prosecution and enforcement and victim protection.
    The Trafficking Victims Protection Act modifies U.S. 
criminal law to provide severe punishment for persons convicted 
of severe forms of trafficking in persons. This includes those 
who recruit, transport, purchase and sell victims, as well as 
those who manage or share in the proceeds of the trafficking 
enterprises. It directs the State Department to include in its 
annual country reports on human rights information regarding 
countries involved in severe forms of trafficking and the 
extent to which their governments are involved in combating or 
tolerating such trafficking.
    It creates a statutory interagency task force to monitor 
and combat trafficking, which is similar to the interagency 
approach the Administration has already taken. It also 
authorizes the establishment of a State Department office to 
monitor and combat trafficking, which will provide assistance 
to the task force.
    It directs the President to establish preventive programs 
aimed at deterring trafficking by enhancing economic 
opportunities for potential trafficking victims and increasing 
public awareness of the dangers of trafficking and the 
protections that are available to victims. It provides 
increased protection and assistance for victims of severe forms 
of trafficking, both in the U.S. and abroad, by funding 
assistance initiatives and protecting certain victims from 
being deported from the U.S. if they are likely to suffer 
retribution or other harm.
    The bill establishes minimum standards for countries that 
have significant trafficking problems. These governments should 
punish these egregious forms of trafficking for what they are--
kidnapping, rape, slavery--and they should vigorously prosecute 
the kidnappers and rapists and slave traders. The bill then 
authorizes AID to fund activities designed to help countries 
meet those standards, such as rewriting their laws and training 
their police and prosecutors. The bill also requires that the 
President, beginning in the Year 2002, either withhold 
nonhumanitarian foreign assistance to governments that fail to 
meet the minimal standards, or to waive that prohibition if he 
finds that providing such assistance is in the national 
interests of the United States.
    So this is not a carrots-only approach, which is what the 
Administration seems to favor. We have carefully calibrated 
this approach which ultimately leaves it up to the President to 
decide whether to withdraw the nonhumanitarian aid, even from 
governments that absolutely refuse to do anything about 
trafficking. But the President would have to at least address 
the problem once a year.
    The government would have to produce a list of governments 
that do not meet the minimal standards, and if the President 
explains why he wanted to keep the funding of these 
governments, he would have to say so in black and white. This 
would have the effect of putting the fight against the 
international slave trade at the top of our foreign policy 
agenda where it belongs.
    Finally, the bill authorizes the State Department to 
publish a list of foreign persons involved with severe forms of 
trafficking and allows the President to impose economic 
sanctions against those persons.
    Mr. Chairman, the Administration has been very critical of 
the original Smith-Kaptur Bill, and in drafting the new bill, 
we have tried to meet as many of their concerns as possible. 
Despite the many concessions we have made, I understand that 
the Administration still opposes the bill based on what they 
erroneously call ``mandatory sanctions.''
    Let me be clear about what this bill does and what it 
doesn't do:
    It contains no trade sanctions and no mandatory sanctions 
at all. It provides for waiverable conditionality on 
nonhumanitarian U.S. foreign assistance for governments that 
fail to meet minimal standards in fighting organized crime 
enterprises that subject women and children to unspeakable 
horrors.
    The State Department has argued that what the problem 
governments need is advance notice and assistance in order to 
address these complex problems, but this bill takes that 
concern into account as well. It authorizes AID to assist 
countries in their efforts to meet minimal standards and delays 
the conditionality on nonhumanitarian foreign aid for 2 years, 
until the Year 2000.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Smith. I thank you, Mr. Chairman. I do want to thank my 
many cosponsors, including again Mr. Gejdenson, Ms. Kaptur, 
Louise Slaughter, the Ranking Member of our Subcommittee, 
Cynthia McKinney, and all the original cosponsors, for their 
support for this legislation.
    Chairman Gilman. I thank the gentleman. I want to commend 
the gentleman from New Jersey, the distinguished Chairman of 
our International Operations and Human Rights Subcommittee, Mr. 
Smith, and the Ranking Minority Member of that Subcommittee, 
Congresswoman McKinney, for their excellent work on their 
Trafficking Victims Protection Act. In addition, I want to 
thank the Ranking Minority Member of our Full Committee, Mr. 
Gejdenson, for his work on this important measure.
    There are few things in this world that are as demoralizing 
or degrading to the humor spirit as having to sell one's body 
or one's child in order to survive. Criminals who initiate or 
help to facilitate such transactions are at the lowest end of 
the human spectrum. H.R. 3244 will help to end the trafficking 
of persons into the sex trade and into the slavery-like 
conditions by requiring various important governmentwide 
action, such as requiring our President to establish an 
interagency task force to monitor and combat trafficking, 
chaired by the Secretary of State and requiring the Secretary 
of State to report to Congress annually on the status of severe 
forms of trafficking, beginning in Fiscal Year 2002 for each 
country that fails to meet the minimal standards.
    The President is going to have to notify Congress about the 
steps that we are taking to adequately respond. The bill 
authorizes the Secretary of State to compile and publish a list 
of foreign persons involved with a severe form of trafficking 
in persons, directly or indirectly, in the United States and to 
take appropriate action. H.R. 3244 further allows the President 
to impose international emergency economic powers, IEEPA, 
sanctions against any foreign person on that list and requires 
that he report to Congress any such sanctions.
    In closing, I note that the Trafficking Victims Protection 
Act is an important initiative that will help put an end to the 
serious problem and must be boldly addressed with no holds 
barred. I commend the Subcommittee on International Operations 
and Human Rights for their work, and I urge my colleagues to 
support the bill.
    I recognize the gentleman from Connecticut, the Ranking 
Minority Member, Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman, I would like to 
first commend both Mr. Smith's staff and my staff--Joseph Rees 
on his staff and Aletea Gordon, David Abramowitz, and Peter Yeo 
on my staff--for the great work they have done here, coming up 
with what I think is a terrific product. Obviously, at least 
this Member of Congress, when I got here, never thought that as 
we approached the millennium we would have a situation where 
even in the United States tens of thousands of women and 
children are trafficked regularly. Only occasionally do those 
stories of Mexican-Americans brutalized, years of selling 
trinkets on the streets of our major cities, make the papers. 
Trafficking of any kind is something that clearly should have 
ended long ago.
    I really want to commend my colleague, Mr. Smith from New 
Jersey, for his cooperation in working out the language on this 
bill. There was never a debate on the goals--we all agreed on 
what we wanted to do--the questions was on how to best get 
there, and I think the staff has done an excellent job 
providing broad prosecution and enforcement provisions in this 
bill to make sure that every kind of trafficking is dealt with.
    Obviously we are not done here today; this is going to take 
some time with the other countries of the world. But it is 
clearly something that is very important.
    Again, I want to thank all the staff, but particularly 
Alethea Gordon of my staff for the great work she has done on 
this. Thank you.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    While I certainly support the worthy cause of this 
legislation and do not want to vote against it, and will not--
it is important, of course, to help stop the sex trade 
trafficking and slavery to prosecute those engaged in such 
reprehensible actions and assist the innocent victims of those 
crimes--I raise concerns about the funding of this new foreign 
policy priority.
    What are we going to cut to fund the extensive aid and 
administrative provisions in this bill? The bill authorizes 
$31.5 million in Fiscal Year 2000, $63 million in Fiscal Year 
2001--that is $94.5 million over the next 2 years.
    Now, all too often in the past, the financial support for 
new initiatives of this kind has come from reducing agriculture 
and food aid. Since the beginning of the Clinton 
Administration, Public Law 480 food aid funding has decreased 
about a half-billion dollars--this at a time when America's 
farms are facing crisis and food needs around the world 
continue to be acute. For all of the Administration's claims to 
feel the pain of Nebraskans and other American farmers, it has 
seemingly increased that pain by slashing food aid by over a 
half-billion dollars.
    Here are the facts. For Fiscal Year 1993 to Fiscal Year 
1999, Title I, Public Law 480, decreased 50 percent; Public Law 
480, Title II, emergency donated food aid, a very major 
decrease there. It is constant, but if you take a look at the 
adjustments for inflation, it is a real decrease. Public Law 
480, Title III, incredibly slashed from $312 million down to 
$25 million, a 92 percent cut.
    Yet, over the past year, we have increased microenterprise, 
child survival and population assistance. While I certainly do 
not oppose those programs--in fact, I am an original cosponsor 
of things like the child survival ones--I do not support 
increasing them at the expense of food aid. We simply can no 
longer go about increasing these programs by taking away 
funding from the Public Law 480 program which harms the 
American farmer and harms hungry people around the world.
    Now, the gentleman is not forcing us to do that. But, in 
fact, when he is proposing additional authorizations, over $90 
million in authorization--$94.5 million exactly--in the next 2 
years, it has an effect upon other Federal accounts. I think 
that East and West Coast Members need to remember that it is 
Members of America's heartland agriculture district that 
provides the needed votes to pass the foreign assistance 
legislation, typically. Without our votes, there would be no 
child survival funding, no population assistance, no sex 
trafficking task force.
    Yet, we look at these programs that are a direct benefit 
not only to hungry people around the world--they are a direct 
benefit to our constituents. We say the cuts continue from the 
authorization; we add new authorizations, we don't add new 
money.
    I want to bring this to my colleagues' attention, hoping 
that they will be more sympathetic to efforts to stop the 
reduction in Public Law 480 funding. To the Administration, I 
ask the question, how can you justify these huge cuts, the one-
half billion dollars in Public Law 480?
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Ms. McKinney--who has laryngitis--do you want to submit a 
statement for the record?
    Ms. McKinney. Yes.
    Chairman Gilman. The statement will be submitted and made a 
part of the record.
    [The information referred to was not available at time of 
print.]
    Chairman Gilman. Are there any other Members seeking 
recognition?
    Mr. Smith. Mr. Chairman, I have an amendment at the desk.
    Chairman Gilman. Mr. Smith has an amendment at the desk. 
The clerk will read the amendment.
    [The information referred to appears in the appendix.]
    Ms. Bloomer. Amendment offered by Mr. Smith on page 6, line 
25, immediately following section----
    Mr. Smith. I ask unanimous consent that the amendment be 
considered as read.
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    Mr. Smith. Mr. Chairman, this is a----
    Chairman Gilman. I recognize Mr. Smith for 5 minutes on his 
amendment.
    Mr. Smith. I entered it with the Minority and I think they 
were in full accord. This just adds as one of the original 
findings that one of the founding doctrines of the United 
States, the Declaration of Independence, recognizes the 
inherent dignity and worth of all people and talks about how 
the United States outlawed slavery and involuntary servitude in 
1865, and recognized them as evil institutions that must be 
abolished.
    Since this is a bill that concerns itself with slavery and 
those kinds of abominations, it would be fitting to have this 
in the findings clauses.
    Chairman Gilman. Any other Members seeking recognition on 
the amendment?
    If not, all those in favor of the amendment signify in the 
usual manner.
    Opposed?
    The amendment is agreed to.
    Any further amendments on this measure? If no further 
amendments----
    Mr. Smith. May I make a parliamentary inquiry?
    Chairman Gilman. Mr. Smith.
    Mr. Smith. Sir, I have been advised that in order to report 
the bill, we need a quorum--so we would require a recorded vote 
on this. Is that true or untrue?
    Chairman Gilman. That is correct. We will set it aside 
until such time as we have a quorum present. We are calling now 
for a quorum. We will now proceed to the next measure. Without 
objection, the bill will be set aside temporarily.
    Chairman Gilman. We will now proceed to H.Con.Res. 165 
relating to American policy toward the Slovak Republic.
    The Chair lays the resolution before the Committee.
    The clerk will report the title of the resolution.
    [The information referred to appears in the appendix.]
    Ms. Bloomer. H.Con.Res. 165, a resolution expressing United 
States policy toward the Slovak Republic.
    Chairman Gilman. Without objection, the preamble and 
operative language of the resolution will read in that order 
for amendment.
    The clerk will read.
    Ms. Bloomer. Resolved by the House of Representatives, the 
Senate concurring, Section 1. Findings. The Congress finds----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and it is open to amendment any 
point. The resolution is in the original jurisdiction of the 
Full Committee.
    I recognize myself for as much time as I may consume.
    I support this resolution. I was pleased to join 
Congressman Mica of Florida in introducing it in July of this 
year. Slovakia is a very important country in the region of 
Central and Eastern Europe, and for that reason, our Nation, 
our allies in the North Atlantic Alliance and the European 
Union have sought to build a strong relationship with it.
    The collapse of communism is, however, a mere 10 years 
behind us, and the fall of the Berlin Wall and the end of the 
Communist regimes in Eastern Europe in 1989 was just the start 
of a very difficult process for Slovakia and many other 
countries in that region.
    Even the most prosperous of those nations, new democracies 
like Poland, Hungary and the Czech Republic, continue to face 
difficult issues and challenges to reforms. But Slovakians have 
an added challenge; it has not really existed as an independent 
state for hundreds of years. After becoming independent in 
1993, the newly independent State of Slovakia then experienced 
a political struggle that ensued between those who want to 
integrate Slovakia in the Pan-American and transatlantic 
institutions by carrying out real reforms, and those who are 
calling for such integration actually made such reforms 
difficult to achieve.
    The parliamentary elections of September 1998 brought to 
power a new coalition government that appears to be working 
toward implementing genuine reform and ensuring that the rights 
of all citizens of Slovakia are respected, regardless of ethnic 
background. I believe that this resolution is a timely 
expression of our support for the new government in Slovakia 
and for the process of economic and political reforms in that 
country.
    It also makes it clear that the United States supports 
Slovakia's eventual integration and the ban of European and 
transatlantic community of democratic states.
    Accordingly, I support the passage of this resolution and I 
urge my colleagues to support it.
    Are there any other Members seeking recognition?
    Mr. Gejdenson. Mr. Chairman.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. We are going to lose all of our Members in a 
little bit, and we want to vote on the sex trafficking bill. I 
am just going to be very brief.
    I agree with everything you said. We need to make sure that 
Slovakia and all the countries of the region get our support. 
There have been negative effects as a result of the actions in 
Kosovo on their economies.
    I hope we limit ourselves to maybe one or two speakers 
unless there is controversy on each amendment, or we will lose 
the sex trafficking bill because we won't have the quorum we 
need to pass that bill. As I understand it, we will be out of 
business on the floor pretty soon.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I will be brief. I rise in support of the resolution. I 
think that when the Soviet Union disintegrated and the Warsaw 
Pact collapsed, we all remember that there was something called 
the visigrad Four--the Czech Republic, Slovakia, Hungary, and 
Poland. It was a disappointment to many people to see Slovakia 
take a turn away from democracy for some period of time, so 
that unanimously all 16 countries of NATO felt they were not 
ready for NATO membership with the other three.
    But Slovakia has moved back and taken very positive steps, 
and the items in the whereas clauses point out the appropriate 
kinds of action, highly commendable actions, that the Slovakian 
Government has taken. They deserve a pat on the back for their 
change in course which will undoubtedly help them be integrated 
in the European Union and, eventually, in NATO. I think it is 
appropriate to pass the legislation.
    I yield back the balance of my time.
    Chairman Gilman. Thank you very much, Mr. Bereuter.
    Are any other Members seeking recognition?
    If there is no other Member seeking recognition, the 
gentleman from Nebraska, Mr. Bereuter, is recognized to offer a 
motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska.
    As many as are in favor, signify in the usual manner.
    Opposed?
    The ayes have it and the motion is agreed to.
    Further proceedings on this measure are postponed.
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I am waiting for a 
handout, a revised handout to be brought. I wondered if we 
might skip temporarily over the next measure and go to the 
fourth, and then back to the third?
    Chairman Gilman. Without objection, we will now move to 
H.Con.Res. 206, a concurrent resolution expressing grave 
concern regarding armed conflict in the North Caucasus region 
of the Russian Federation.
    The Chair lays the resolution before the Committee.
    The clerk will report the title of the resolution.
    [The information referred to appears in the appendix.]
    Ms. Bloomer. H.Con.Res. 206, a resolution expressing grave 
concern regarding armed conflict in the North Caucasus region 
of the Russian Federation, which has resulted in civilian 
casualties and internally displaced persons, and urging all 
sides to pursue dialogue for peaceful resolution of the 
conflict.
    Chairman Gilman. Without objection, the preamble and 
operative language of the resolution will be read in that order 
for amendment.
    The clerk will read.
    Ms. Bloomer. Whereas during the Russo-Chechen War of 1994-
1996, Russian Federation----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    The resolution is in the original jurisdiction of the Full 
Committee.
    Mr. Smith. Mr. Chairman.
    Chairman Gilman. Would the gentleman withhold?
    I support the resolution introduced by our colleague from 
New Jersey, Mr. Smith. I believe it makes some important points 
with regard to the current warfare in the region of Chechnya 
and Russia. Most importantly, it points out that tens of 
thousands of innocent civilians are suffering terribly due to 
the Russian Government's indiscriminate use of force and the 
Russians violation of its own commitments as a member state in 
the Organization for Security and Cooperation in Europe.
    This resolution states the obvious, that a peaceful 
settlement is required in Chechnya if the suffering of innocent 
civilians is to end soon. The resolution also states, and I 
think quite appropriately, that there has been a wave of 
internal lawlessness and kidnappings within Chechnya in recent 
years, including an armed attack on a neighboring region of 
Russia by extremist forces from Chechnya.
    Although I do not think that excuses the current military 
actions by Russia in Chechnya, it perhaps underlies why there 
is no clear consensus yet as to what the international 
community should do with regard to the latest conflict in that 
region.
    I would like to take this opportunity to state my belief 
that the latest Russian military offensive will very likely do 
little to address the underlying causes of instability in the 
North Caucasus region and indeed throughout Russia. Those 
underlying problems include vast corruption at all levels of 
the Russian Government; and in absence of real economic 
reforms, allowing the North Caucasus region to slip into 
grinding poverty, that is, in turn, breeding yet even more 
instability.
    This resolution makes several important statements, but I 
would specifically point out that the resolution states 
Russia's use of indiscriminate force in Chechnya is a direct 
violation of its commitments as a member state of the 
Organization for Security and Cooperation in Europe, just as 
the previous military operation in Chechnya was in violation of 
those OSCE commitments.
    I also note that Russia has violated the treaty on 
conventional forces in Europe in the course of that operation.
    The summit of the OSCE heads of state is to be held in 
Istanbul in the next few days, and it is time for our 
government to call Russia to task for its violation of those 
OSCE commitments and disregard for the CFE treaty, a treaty 
that, in fact, has already been revised to meet earlier Russian 
demands. The OCSE summit is a perfect venue in which to do 
that.
    We may not see it on our television screens, but many 
innocent people are suffering terribly from the indiscriminate 
force used by Russia in Chechnya, as well as for the extremism 
of some of those on the Chechnya side. It is time to get the 
two sides to the table, and as this resolution points out, the 
OSCE can help if Russian lives up to its commitments.
    Accordingly, I support the resolution and recognize Mr. 
Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. The conflict 
between Russians and Chechens is over 100 years old. Under 
Stalin, they tried force to resettle the Chechen people. We are 
still seeing here today the convulsions of the end of the old 
Soviet system. It is clear that this is a very complicated 
situation. The Russians have failed to recognize the impact on 
the civilian populations--over 200,000 people displaced.
    We would hope that the Russian Government would try much 
more sincerely, with much more effort, to make sure they are 
not dislodging large numbers of innocent civilians.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    The gentleman from New Jersey, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I thank you for placing H.Con.Res. 206 on the agenda today. 
This resolution addresses an issue of increasing urgency, the 
war in Chechnya and the plight of innocent people caught in the 
conflict.
    Mr. Chairman, following two armed incursions into the 
neighboring Republic of Dagestan by Islamic extremists, based 
in Chechnya but independent of the Chechen Government, the 
Russian Government sent the full weight of its military regime 
into Chechnya, a region that gained de facto independence from 
Russia as a result of the bloody war from 1994 to 1996.
    While Russia, on the one hand, is justified in rebuffing 
armed aggression against its territorial integrity--in 
combating terrorism--one can sympathize with Russia's 
frustration over the unsolved bombings that killed almost 300 
persons in Russia around the same time as the Dagestan 
incursion.
    The government of Chechnya, too, has not been entirely 
blameless in the situation since achieving de facto 
independence from Russia in 1996. Chechnya has degenerated into 
a morass of lawlessness and violence with a government 
powerless to establish law and order. But, Mr. Chairman, these 
arguments do not justify a war against innocent civilians.
    Noncombatant villages, homes, and farms have been subjected 
to artillery shellings and air raids. The death toll now is in 
the hundreds, and the number of internally displaced persons 
who have sought refuge in neighboring regions is around 
200,000.
    Mr. Chairman, for this reason, I, together with Mr. Wolf 
and Mr. Forbes, introduced this resolution; and we have been 
joined by Messrs. Hoyer, Cardin, Engel, and Stark as 
cosponsors. Specifically, the resolution urges the government 
of the Russian Federation and all parties to cease the 
indiscriminate use of force against the civilian population in 
Chechnya.
    It further urges the government of Russia and all parties 
to enter into negotiations and to avail itself of the 
capabilities of the OSCE which helped broker an end to the 
1994-1996 war. Additionally, the resolution calls upon Chechen 
authorities to make every effort to deny basis to radical 
elements committed to violent actions in the Northern Caucasus 
and urges Chechen authorities to create a rule-of-law 
environment with legal norms based upon internationally 
accepted standards.
    Finally, the resolution calls upon our own government to 
express to all parties the necessity of resolving the conflict 
peacefully and to express the willingness of the U.S. to extend 
appropriate assistance toward such a resolution, including 
humanitarian assistance as needed.
    Mr. Chairman, this resolution is not anti-Russian, and it 
is not pro-Chechen. Many observers who wish to see a prosperous 
and democratic Russia have been deeply disturbed by Russia's 
actions in Chechnya.
    Yesterday, the State Department accused Moscow of failing 
to meet human rights standards set out both in the Geneva 
Conventions and the Codes of Conduct of the OSCE. 
Unfortunately, when Attorney General Reno visited Moscow last 
month, her evasive comments about the war in Chechnya prompted 
the October 23rd edition of the Moscow Times to say, and I 
quote, ``Reno's quiet gave war a green light.'' Hopefully, the 
Administration will speak with one voice in the future, and 
avoid any mixed messages.
    The last thing the Russian military needs now is the 
slightest encouragement for its present action. Let me just 
remind Members that the last time this war was going on, we had 
hearing after hearing, many of them held in this room. We heard 
from Yulana Bonner and many others who said we had given the 
green light, however unwittingly, to the Russians when they 
were doing their ``scorched earth'' policy in Chechnya last 
time.
    Let us not have deja vu again. Let us go on record trying 
to find a peaceful outcome to this despicable mess in Cehchnya. 
The killing is going on, and the internally displaced people 
and the refugees who have made it across the border are at 
great risk of dying or of being very, very severely 
malnourished as a result of this war. It has got to come to a 
halt.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Smith.
    Does any other Member over here seek recognition?
    If not, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I would be voting in favor of this motion, of course, but I 
would like to remind Members of the Committee, while we are 
here waiting for our quorum, that for about 2 years I have been 
suggesting, unless we pay attention to what is going on in 
Afghanistan, that it would have severe repercussions in Central 
Asia.
    I believe that at least part of the problem in Chechnya can 
be traced back to the massive drug production that is going on 
in Afghanistan today, and the drug money that is being produced 
there is having its impact throughout Central Asia.
    Although I do think, of course, we have to be tough on our 
Russian friends not to have a ``scorched earth'' policy, we 
also must understand that the Chechens themselves could well 
have sources of money coming from Afghanistan and this drug 
money.
    So we should be a force for peace. We should be a force for 
stability in the region. I appreciate that is the purpose of 
this resolution and will support it. But again, I think that 
this Administration has got to understand that their current 
policy in Afghanistan is having very serious repercussions, and 
this is one of them.
    Let me again state for the record that the response of this 
Administration for well over a year, for the documents that I 
requested concerning Afghanistan has not been--they have not 
been forthcoming. They have been obstructionist. Even to this 
date, even after a very contentious hearing in which this issue 
was vocalized, they still have not come forward with the 
documents that I have been looking for for well over a year.
    So I assume, and I am assuming, that what we are facing 
here in Chechnya could well be just another off-shoot of the 
failed policy in Afghanistan, or should we say, the 
Administration's policy of Afghanistan coming to its natural 
conclusion.
    So with that, I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Are there any other Members seeking recognition?
    Mr. Smith.
    Mr. Smith. I have an amendment at the desk.
    Chairman Gilman. Mr. Smith has an amendment at the desk.
    The clerk will read the amendment.
    [The information referred to appears in the appendix.]
    Ms. Bloomer. En bloc amendment offered by Mr. Smith, page 
2, in the first----
    Mr. Smith. I ask unanimous consent that the amendment 
considered as read.
    Chairman Gilman. Without objection, the amendment is 
considered as read.
    Mr. Smith. Mr. Chairman, these are just perfecting 
amendments, some recommendations that have been made by our 
embassy in Moscow by Ambassador Collins, and by both majority 
and minority staffs. I do think it just tightens and makes what 
I hope was a good resolution even better. I urge the adoption.
    Mr. Gejdenson. We have no objection.
    Chairman Gilman. All those in favor of the amendment 
signify in the usual manner.
    Opposed?
    The amendment is carried.
    Mr. Smith. Mr. Chairman.
    Chairman Gilman. Mr. Smith.
    Mr. Smith. Just if I could announce to the Members that we 
are still hoping to have a vote on the Smith-Gejdenson 
language, the legislation on sex trafficking. So if Members 
could stick around, we do need a quorum to report it out. It is 
a matter of if and not when--when and not if. So we hope to get 
this as soon as possible. As soon as we have the quorum, the 
roll call will occur, if that is OK by you.
    Chairman Gilman. Thank you.
    Mr. Gejdenson. Mr. Chairman.
    Chairman Gilman. Yes, Mr. Gejdenson.
    Mr. Gejdenson. I am not trying to cutoff anybody's ability 
to speak here, I would suggest if maybe we could limit it to 5 
minutes on each side on each proposition, so if you have an 
amendment, you have a point of order, you get 5 minutes on each 
side, so we can just get through these. Because what I am 
afraid of is, we will lose our time.
    So unless there is objection, I ask unanimous consent----
    Mr. Bereuter. I object.
    Chairman Gilman. Objection is heard.
    Mr. Bereuter is recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. As amended. The question is on the motion 
of the gentleman from Nebraska. As many as are in favor of the 
motion, say aye.
    As many as are opposed----
    The ayes have it and the motion is agreed to.
    Further proceedings on this measure are postponed.
    Chairman Gilman. We will now proceed to H.Con.Res. 222, the 
concurrent resolution condemning the assassination of the 
Armenian Prime Minister and other Armenian Government 
officials.
    The Chair lays a resolution before the Committee.
    The clerk will report the title of the resolution.
    [The information referred to appears in the appendix.]
    Ms. Bloomer. H.Con.Res. 222, a resolution condemning the 
assassination of Armenia Prime Minister Vazgen Sargsian and 
other officials of the Armenian Government and expressing the 
sense of the Congress in mourning this tragic loss of the duly 
elected leadership of Armenia.
    Chairman Gilman. Without objection, the preamble and 
operative language of the resolution will be read in that order 
for amendment.
    The clerk will read.
    Ms. Bloomer. Whereas on October 27, 1999, several armed 
individuals broke into Armenia's Parliament and assassinated 
the Prime Minister of Armenia, Vazgen Sargsian, the Chairman of 
the Armenian Parliament, Karen Demirchian----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at this 
point.
    The resolution is in the original jurisdiction of the Full 
Committee.
    I support this resolution introduced by Congressman Rogan 
of California, which is identical to the language of the 
resolution introduced by a bipartisan group of Members of the 
Senate, which I hope will have the support of our colleagues on 
this Committee and in the House as a whole. The killings that 
took place in Armenia on October 27th were deplorable.
    While the perpetrators claimed to be acting on October 27th 
on behalf of the Armenian people, their means of acting, the 
murders of top officials, is not the way to build true 
democracy in Armenia or in any other such struggling nation.
    This resolution properly calls for the trial of those 
accused of those murders. Of course, they should indeed have 
their day in court so that all Armenians can better understand 
their motives. That should be as much a part of democracy in 
Armenia as it is here, but they should, and I am sure will, 
face a thorough prosecution.
    True democracy is not created by such senseless atrocities. 
Armenia faces serious difficulties, not just the academic and 
political difficulties that face all the states of the former 
Soviet Union, but also the need for peaceful resolution of the 
conflict with neighboring Azerbaijan that has been merely 
suspended by a cease-fire for the past 5 years.
    The murders of top officials in Armenia did not help that 
small nation resolve those serious problems, but the adoption 
of this resolution by the House may be helpful by making it 
clear to the Armenian people that our Nation continues to 
support democracy in their nation and opposes such acts of 
terrorism. Accordingly, I fully support the resolution.
    Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I join with you in supporting 
this resolution. One of the reasons I wanted a markup in the 
Committee is to have the Committee clearly on record in support 
of democracy in Armenia. The Armenian people have suffered so 
much since the genocide earlier in the 1900's, and suffered 
under Soviet control. They now have their own democracy, and 
all of us are saddened to see this brutal and senseless act.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Are any other Members seeking recognition?
    Mr. Radanovich. Mr. Chairman.
    Chairman Gilman. Mr. Radanovich.
    Mr. Radonovich. I do have a statement for the record. For 
the sake of time, I would like to submit it into the record.
    [The prepared statement of Mr. Radanovich appears in the 
appendix.]
    Chairman Gilman. Without objection, the statement will be 
made a part of the record.
    Is any other Member seeking recognition?
    If not, I recognize the gentleman from Nebraska, Mr. 
Bereuter, to offer a motion.
    Mr. Bereuter. I move the Chairman be requested to seek 
consideration of the pending resolution on the suspension 
calendar.
    Chairman Gilman. The question is on the motion of gentleman 
from Nebraska. As many as are in favor of the motion, say aye.
    As many as are opposed, say no.
    The ayes have it, and the motion is agreed to.
    Further proceedings on this measure are postponed.
    Chairman Gilman. We will now proceed to H.Con.Res. 211, a 
concurrent resolution expressing the strong support of the 
Congress for the recently concluded elections in the Republic 
of India.
    The Chair now lays a resolution before the Committee.
    The clerk will report the title of the resolution.
    [The information referred to appears in the appendix.]
    Ms. Bloomer. H.Con.Res. 211, a resolution expressing the 
strong support of the Congress for the recently concluded 
elections in the Republic of India and urging the President to 
travel to India.
    Chairman Gilman. Without objection, the preamble and 
operative language of the resolution will be read, in that 
order, for amendment.
    The clerk will read.
    Ms. Bloomer. Whereas the Republic of India is a long-
standing parliamentary democracy----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    This resolution was considered by the Subcommittee on Asia 
and the Pacific and was reported without amendment.
    Who seeks recognition?
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I will be brief and 
be able to yield to the rest of my time to Mr. Ackerman.
    The most populous democracy on this planet is an important 
friend to the United States. We need to continue to develop 
this relationship beyond the geopolitical considerations of the 
region. Both from the institutional point of two great 
democracies to the economic opportunities for the many Indian 
citizens who are a strong part of American society, it is 
critical for us to recognize and to build on what is already a 
very important relationship.
    I again, as I have said before, am privileged to hold a 
seat that Chester Bowles had, one of our greatest Ambassadors 
to India, serving two terms there, in helping establish a very 
solid foundation under one of our most important relationships.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. The Asia and Pacific 
Subcommittee marked up this legislation October 27th and 
unanimously approved it.
    The resolution rightly congratulates the people of India on 
a successful election where over 350 million people cast their 
ballots. The reelection of Prime Minister Vajpayee reflects a 
vibrant multiparty system where parties with strongly differing 
views can compete in a way that is uniquely Indian. We 
certainly wish the Vajpayee party and its ruling coalition well 
as it prepares to lead the country.
    The resolution offered by our distinguished colleague, Mr. 
Ackerman, rightly alludes to this strategic relationship 
between the U.S. and India. We certainly have such a strategic 
relationship today, just as we have strategic relationships 
with many other countries, and we look forward to improved 
relations.
    I urge adoption.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Ackerman.
    Mr. Ackerman. Thank you. Mr. Chairman, let me thank you and 
your staff on the Committee for agreeing to consider my 
resolution this afternoon. I also want to thank Mr. Gejdenson 
and Mr. Lantos for cosponsoring the resolution.
    The contrasting events in India and Pakistan over a single 
24-hour period speak eloquently about the new challenges and 
opportunities that we face in South Asia. In India, we have 
seen hundreds of millions of voters enthusiastically exercise 
their votes in a free and fair election. In Pakistan, we 
witnessed a military coup.
    This resolution, Mr. Chairman, recognizes that the people 
of India have a deep and abiding commitment to democracy, and 
it salutes them for the passion with which they choose their 
own destiny.
    No country reflects their own values more in that part of 
the world than India. It is high time we seriously begin to 
recognize this fact, and graduate from near-platitudes to some 
tangible policy changes toward India. I believe it is time to 
reexamine our basic premise regarding U.S. policy in South 
Asia.
    We should abandon the old paradigms and Cold War hang-ups 
and see that India, a democracy, is our natural ally in the 
region. The best way to demonstrate our commitment to the 
people of India is by ensuring that the President travels to 
India as soon as possible.
    I thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Ackerman.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    I support this resolution and I agree with my good friend 
Mr. Ackerman that this is very symbolic in that India had free 
elections, and within a very short period of time, we see a 
military regime being imposed on the people of Pakistan. It is 
incumbent on the people of the United States and on us to again 
and again reaffirm to the people of the world that we are in 
favor of democracy, we are in favor of the democratic process, 
and that this resolution is very timely in that regard.
    I do disagree with my good friend Mr. Ackerman that we had 
Cold War hang-ups. Let us remember during the Cold War, India 
sided with the Soviet Union time and time again, and condemned 
the United States time and time again. Now, the Cold War is 
over, we should move forward with a better relationship with 
India, but let us not just call them Cold War hang-ups.
    It is not a Cold War hang-up to be upset with someone who 
is refusing to condemn the Russians for all of their vicious, 
imperialistic and militaristic activities while condemning the 
United States for any of its imperfections, which was India's 
standard procedure in those days.
    Additionally, let me say this: I think India and the United 
States can, in this post-Cold War world, reach a new and better 
relationship because of the threat of China, which threatens 
the peace for both of our countries.
    Finally, we need to go on record to make sure that India 
knows having free elections is good, but they should let free 
elections determine what the outcome will be in Kashmir. If 
they would agree to that, they would agree to allowing the 
people of Kashmir to have a free and democratic election, we 
could have that problem done with--but they haven't permitted 
that for all of these years.
    So I support the resolution. I think we have to go after 
this in a very thoughtful manner. Thank you very much.
    Chairman Gilman. Any other Members seeking recognition? Mr. 
Brown.
    Mr. Brown. I thank you, Mr. Chairman.
    I also rise in strong support of the resolution. I would 
like, if appropriate, to ask the gentleman from New York, Mr. 
Ackerman, if I could add my name to the list of cosponsors. I 
also applaud the people of India, 350 million strong, for the 
greatest turnout for any election in the world--in the history 
of the world.
    I also applaud the government of India and, more 
importantly, the people of India for the fact that during their 
series of elections in the last 5 or 6 years and their change 
in governments, that the government has enjoyed stability, and 
the country has enjoyed stability through all of that. Even 
with the immense amount of upheaval there has been in the 
subcontinent of Sri Lanka and the domestic problems there and 
the coup in Pakistan, India has continued to move forward.
    So I ask my colleagues for support of the resolution.
    Chairman Gilman. Thank you, Mr. Brown.
    Any other Members seeking recognition?
    I want to thank the Chairman and Ranking Minority Member of 
the Asia and Pacific Subcommittee for sending this important 
measure to the Full Committee.
    I commend Mr. Ackerman, who is Co-chairman of the Indian 
Caucus, and Mr. Bereuter, the distinguished Chairman of our 
Subcommittee, for their leadership and expertise in crafting 
this appropriate measure.
    The President recently waived some of the economic 
sanctions against India. Last week, Mr. Gejdenson and I sent a 
letter to the President urging he waive the last remaining 
economic sanction against India. That sanction requires that 
the U.S. impose international financial institution loans to 
India. These loans are critically needed for infrastructure 
projects in the poorest areas of India. In addition, waiver of 
these loans will benefit U.S. companies who want to work on 
those projects.
    India recently went through its third general election in 3 
years. That election started September 5th, and it ended 
October 4th. The process took about a month, because there were 
some 600 million voters and thousands of polling stations 
spread throughout the huge nation. But it was an orderly 
process, even though it was such a mammoth undertaking.
    Our mutual faith in the rule of law, the process of 
democracy and a deep respect for the world's different 
religious traditions are what tie our two people so closely 
together, and it is due to these similar core values that India 
and our Nation see eye to eye on so many regional concerns.
    China's hegemony, the spread of Islamic terrorism, spilling 
out of Afghanistan, Pakistan, the DeMarco dictatorship and the 
occupation of Tibet are all serious matters and will only be 
resolved by the team work of leaders of our two nations working 
closely together. The close relationship with India is long 
overdue.
    Again, I commend both the distinguished Chairman of the 
Asia and Pacific Subcommittee, Mr. Bereuter, and the 
distinguished Co-chairman of the India Caucus, our leader on 
India issues, Congressman Ackerman, for crafting this measure. 
I urge our colleagues to support this measure.
    Any other Member seeking recognition?
    If there is no other Member seeking recognition, I call on 
Mr. Bereuter for a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. All in favor of the resolution by Mr. 
Bereuter, signify in the usual manner.
    Opposed.
    So be it. The resolution is adopted.
    Further proceedings on this measure are postponed.
    A brief pause while we count for a quorum.
    Chairman Gilman. We will now go to H.Con.Res. 200, relating 
to Pakistan.
    The Chair lays a resolution before the Committee.
    The clerk will the report the title of the resolution.
    [The information referred to appears in the appendix.]
    Ms. Bloomer. H.Con.Res. 200, a resolution expressing the 
strong opposition of Congress to the military coup in Pakistan 
and calling for a civilian democratically elected government to 
be returned to power in Pakistan.
    Chairman Gilman. This resolution was considered by the 
Subcommittee on Asia and the Pacific and was reported from that 
Subcommittee.
    Without objection, the Subcommittee recommendation shall be 
considered as the original text for the purposes of amendment.
    Without objection, the preamble and operative language of 
the Subcommittee recommendation will be read, in that order, 
for amendment.
    The clerk will read.
    [The information referred to appears in the appendix.]
    Ms. Bloomer. Whereas the United States has a vital interest 
in promoting stability in South----
    Chairman Gilman. Without objection the Subcommittee's 
recommendation is considered as having been read and open for 
amendment at any point.
    Mr. Gejdenson. Mr. Chairman.
    Chairman Gilman. By unanimous consent, we will now go back 
to the sexual trafficking bill, since we have a quorum present.
    The measure is now before the Committee.
    The gentleman from Nebraska is recognized for a motion on 
the resolution.
    Mr. Bereuter. I ask unanimous consent that the Committee be 
deemed to have adopted an amendment in the nature of a 
substitute consisting of the text of the bill as amended by the 
Committee.
    Chairman Gilman. Without objection.
    Mr. Bereuter. Mr. Chairman, I move that the Committee 
report the bill to the House with the recommendation that the 
bill do pass.
    Chairman Gilman. A motion has been made by Mr. Bereuter.
    All those in favor, signify in the usual manner.
    Opposed.
    The bill is passed.
    We will now return to the Pakistan measure.
    Mr. Smith. I have an amendment at the desk in the nature of 
a substitute.
    Mr. Bereuter. Mr. Chairman, I think it is appropriate that 
the Chairman of the Subcommittee be heard on the Pakistan 
legislation.
    Chairman Gilman. Would the gentleman withhold?
    Mr. Gejdenson. I will be happy to withhold. I would hope we 
would return after the vote if we run out of time.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. My comments are quite likely to be quite 
lengthy, Mr. Chairman.
    Chairman Gilman. Continue until we run out of the time.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Mr. Chairman, H.Con.Res. 200 was marked by the Subcommittee 
on Asia and Pacific on October 27----
    Chairman Gilman. Would the gentleman withhold? We have a 
very important measure after this, so please return so we can 
complete our work. We are near the end of our considerations.
    Mr. Burton. Mr. Chairman, a point of order.
    Chairman Gilman. A point of order by Mr. Burton.
    Mr. Burton. I would just like to make a point of order that 
a lot of the Members are leaving to go vote on the Floor, and I 
think what Mr. Bereuter is going to say on this very important 
resolution needs to be heard by as many as possible. So I would 
urge that we wait until we come back.
    Chairman Gilman. Without objection, we will put off the 
discussion on this measure until the vote is over. I urge all 
Members to return.
    The Committee stands in recess.
    [Recess.]
    Chairman Gilman. The Committee will come to order.
    The Chair would like to clarify that a quorum was present 
when the motion to report the previous bill was disposed of.
    Without objection, the Chair or his designee is authorized 
to make motions under rule 22 with respect to a conference on 
or a counterpart from the Senate relating to H.R. 3244. Without 
objection, the Chief of Staff is empowered to make technical 
and grammatical conforming amendments to the text of H.R. 3244.
    Mr. Bereuter is recognized.
    Mr. Bereuter. Mr. Chairman, are we back on H.Con.Res. 200 
then?
    Chairman Gilman. Yes, we are. Please proceed, Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, this resolution was marked up 
on October 27th, passed by voice vote as amended by an 
amendment in the nature of a substitute. The resolution 
expresses a great concern regarding the impact of the coup upon 
democracy in Pakistan and upon relations in South Asia, 
particularly India-Pakistani relations.
    The amended H.Con.Res. 200 calls for the President to 
withhold consideration of arms sales or equipment or provisions 
of military services until civilian government is reinstated. 
However, it keeps intact our very limited IMET links with 
Pakistan.
    Currently, only two mid-level Pakistani officers are 
receiving any form of U.S. education. There are no Pakistani 
officers receiving IMET at the present time.
    The amended H.Con.Res. 200 also calls upon General 
Musharraf to immediately release a timetable for returning 
power in Pakistan to a civilian, democratically elected 
government. We remain concerned that General Musharraf has not 
yet presented a timetable but somewhat encouraged that he has 
appointed civilians to the National Security Council and has 
formed a cabinet dominated by civilians.
    I would urge that the amendment, without further 
amendments--that the resolution without further amendments be 
adopted. I yield back.
    Mr. Gejdenson. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Gilman. Mr. Gejdenson has an amendment. The clerk 
will read the amendment.
    Mr. Bereuter. Mr. Chairman, reserving a point of order.
    Chairman Gilman. The gentleman will state his point of 
order.
    Mr. Bereuter. I am just reserving a point of order at this 
point, Mr. Chairman.
    Chairman Gilman. The gentleman's reservation will be heard 
at a later date.
    Ms. Bloomer. Amendment in the nature of a substitute 
offered by Mr. Gejdenson and Mr. Brown.
    Amend the preamble----
    Mr. Gejdenson. Mr. Chairman, I move the amendment be 
considered as read.
    Chairman Gilman. The gentleman asks unanimous consent the 
amendment be considered as having been read without objection.
    [The information referred to appears in the appendix.]
    And the gentleman is recognized for 5 minutes on the 
amendment.
    The clerk will distribute the amendment.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    This amendment simply restores the resolution to its 
original construct. If there was a debate in the Congress as to 
whether or not a watered-down version or the original version 
ought to pass, let me read to you from the New York Times of 
November 4th. This is General Musharraf and his assessment of 
his coup. ``I was surprised,'' the news agency quoted him as 
saying. ``The reaction was more mild than I expected.''
    Well, let me tell you something. The last thing we want to 
do is tell every fledgling democracy out there that if they 
have got trouble the solution is to have a military coup. We 
want to see that democratic institutions are supported.
    If there are problems in government of corruption or other 
issues, then there ought to be reform of their judicial system; 
there ought to be reform of their legislative system; there 
ought to be reform of the executive branch of government. But 
for this Congress, the greatest democracy in the world, to send 
any other message but a clear message that simply states that 
America's relationship with Pakistan hinges on a restoration of 
democratic institutions, not promising us they are going to be 
democratic institutions, not sending a time line for democratic 
institutions, especially when you look at the history here, but 
having democratic institutions.
    I thank my colleagues. I don't want to take up their time. 
This is the original resolution which I believe has broad 
support and clearly states what the American people believe.
    Mr. Bereuter. Would the gentleman yield?
    Mr. Gejdenson. I will be happy to yield.
    Mr. Bereuter. Do we have the substitute before us? I am 
looking through my piles of paper, and I can't find it.
    Mr. Gejdenson. If the gentleman doesn't have a copy, 
somebody is bringing you another copy.
    Mr. Bereuter. Could you explain to me and other Members 
exactly what your amendment does, as compared to the amended 
text we reported out?
    Mr. Gejdenson. In the amended text, in a number of 
instances, in my opinion, and I know the gentleman did this 
earnestly, it frankly waters down condemnation of the coup and 
puts in language that doesn't clearly state what I think the 
American people believe is the right policy for the United 
States.
    We ought not simply allow this coup to go by without 
clearly stating that we condemn the coup and that we want the 
sanctions to be in place until there are democratic 
institutions back, in fact, in Pakistan.
    Mr. Bereuter. Mr. Gejdenson, would the gentleman yield?
    Mr. Gejdenson. I will be happy to yield.
    Mr. Bereuter. Thank you. I am going to be looking at this 
as quickly as possible.
    Perhaps some other Members will want to claim time at this 
point.
    Mr. Cooksey [presiding]. Who seeks recognition?
    Mr. Burton.
    Mr. Burton. I don't disagree with my colleague from 
Connecticut that we want to see democratic institutions 
reinstalled into Pakistan as quickly as possible, but as a 
practical matter it can't be done tomorrow. It is going to 
probably take a few months to organize a plebiscite or a 
referendum, and that is why I think the Chairman of the 
Subcommittee and I and others, when we talked about this, 
thought 6 months would be a reasonable period of time within 
which to demand, if you will, that Pakistan have a plebiscite 
or have a referendum on the government that is now in power, 
the military government.
    Another thing I think we ought to consider is the very 
touchy situation that exists in that part of the world right 
now.
    Pakistan and India have been at brink of war for a long 
time, and the first steps away from the brink of war took place 
after this military government took power just recently. This 
general has withdrawn the troops from the Kashmiri border up 
there, and he has also reached out to the Indian government to 
try to start a dialogue that will lead to a permanent peace--at 
least what we hope to be a permanent peace.
    I think right now for us to pass a resolution, being the 
only superpower in the world, so to speak, it would send a 
signal maybe to India and maybe to some of the adversaries of 
Pakistan, from inside as well as outside, that we want to see 
them out or overthrown immediately. That is why I thought a 
more reasonable resolution should be acceptable at this point. 
That is saying that we want them to do something within 6 
months to restore a civil government, a democratically elected 
government, to power.
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Burton. Yes, I will in just 1 second.
    I think it would provide a feeling of stability in that 
region, because of the detente, if you will, between India and 
Pakistan at the present time. It would serve to put a little 
oil on the water while all of this is taking place.
    So I would urge my colleagues to accept the recommendations 
of the Chairman of the Subcommittee because I think that 
language sends a very strong message, but it is not 
inflammatory to the degree that it might upset the balance of 
power over there.
    I will be happy to yield to my colleague.
    Mr. Gejdenson. I appreciate the gentleman's concerns.
    I would say two things. One is, to the contrary of the 
gentleman's assessment that this might last 6 months, General 
Musharraf has said that he is not putting down any kind of time 
line, so we don't know how long the military would maintain 
control.
    I think, again, if we can just take ourselves out of this 
situation for one moment and think what message you want to 
send to all the countries that were once part of the Soviet 
Union that are having trouble with corruption--that are having 
problems in the court systems, that are having problems in 
their economy--do we want to tell them that the Congress of the 
United States thinks it is appropriate to have a coup to fix 
the system? I don't think so.
    Mr. Burton. If I can reclaim my time, let me just say that 
nothing in the resolution, as amended, by the Chairman of the 
Subcommittee condones or approves of the military government, 
that now exists or the way they took over.
    What we tried to do, what the Chairman tried to do, was to 
make sure that while we were, in effect, demanding that there 
be a return to civil government, that it be done in such a way 
as to ensure the stability of the region, and I think this does 
this.
    You are not going to be able to change the situation 
overnight. While the general over there may say he is not going 
to accept any time line, it certainly won't hurt for us to put 
one in the resolution. I think we do that with this resolution. 
I think it is one that will send a very strong signal, and it 
is something that is do-able.
    You cannot force them to change that government overnight. 
Even if they were going to return to democracy, it is going to 
take time to set up the mechanism to do that. So I think 6 
months is a reasonable length of time, and I think the 
Chairman's substitute is the right approach.
    I yield back the balance of my time.
    Mr. Cooksey. The gentleman from Ohio, Mr. Brown, is 
recognized.
    Mr. Brown. I thank you, Mr. Chairman.
    I rise in support of the Gejdenson Amendment, as co-author 
of the amendment. I think this Committee needs to, as my 
colleague from Connecticut said, send a strong and unequivocal 
message that the U.S. is not in the business of supporting 
military dictatorships. We don't do it in Burma. We don't do it 
in North Korea. We shouldn't do it in Pakistan.
    No matter how unpopular he was, Prime Minister Sharif was 
elected by the people of Pakistan, and if General Musharraf is 
unhappy with his prime minister, he should have resigned his 
military commission and entered the political arena. That is 
the belief that people in this institution have. That is why 
the language in the Gejdenson Amendment should be adopted, the 
language restoring the language of the original bill.
    I think Mr. Gejdenson's statement quoting General Musharraf 
that reaction was more mild than he expected tells us 
everything. If reaction is more mild than he expected and we 
continue that mild reaction from this Committee and from this 
Congress, from the floor of the House, then we are sending a 
message to potential dictators, to people that are thinking of 
launching coups against democratically elected governments, we 
are sending the message to them that, well, we won't object too 
much in this institution--other world leaders won't object too 
much if there is a coup.
    Now, there is nowhere in the Pakistani constitution that I 
can see that says you give them 6 months before they need to 
restore democratic rule. If you give them 6 months, it helps 
them consolidate their military rule. Where are they as a 
nation? Where are they as a democracy?
    Also, I might add, in the language of the amendment, under 
no circumstances should taxpayers in this country be asked to 
provide training and assistance to the same Pakistani military 
that just deposed its civilian-elected government.
    I ask my colleagues to support the Gejdenson Amendment 
because it restores the original language, and it does, in 
fact, say that Americans condemn this kind of military action 
against a democratically elected government.
    I yield back the balance of my time.
    Mr. Bereuter. Mr. Chairman.
    Mr. Cooksey. The gentleman from Nebraska, Mr. Bereuter.
    Mr. Bereuter. I would like to be recognized in opposition 
to the Gejdenson Amendment, but perhaps we can find some common 
ground here.
    Mr. Cooksey. The gentleman is recognized for 5 minutes.
    Mr. Bereuter. I believe there are only four subsections 
where there is a difference between the resolution reported 
from the Subcommittee and the gentleman's substitute.
    The first two, the gentleman restores language, condemns 
instead of expresses concerns, expresses grave concern. This is 
a matter of degree, and I can understand the gentleman's point 
of view, and this is not worth arguing over as far as I am 
concerned. The gentleman may be right that it is appropriate to 
condemn.
    But when you look at subsection 4, Mr. Gejdenson, your 
language calls for the immediate restoration of civilian, 
democratically elected government. You know that is not going 
to happen. There is no possibility for that to happen, even if 
the general would decide to walk away from the situation.
    So what we did, I thought, was a reasonable kind of 
suggestion, where we can give them some room to come back as 
quickly as possible.
    So we have rapid restoration, and I think, accepting a 
suggestion from Mr. Ackerman, we said including immediate 
release of a timetable for restoration of democracy and rule of 
law.
    I think that is a reasonable approach. You know perfectly 
well that calling for immediate restoration is only rhetoric. 
It cannot----
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Bereuter. I would ask the gentleman to reconsider that, 
and I would move to the fourth point, but I would yield to the 
gentleman.
    Mr. Gejdenson. I am not sure it is rhetoric, but I am 
willing to try to work with the gentleman. Let's go to the 
fourth point and see what the package looks like.
    Mr. Bereuter. The fourth point the gentleman had already 
agreed to, but backing away from it because of perhaps a 
concern about the amendments that were made by this Member in 
Committee, with some suggestions from your side of the aisle. I 
believe that any time you cut-off IMET, you are hurting our 
interests, our national interests. This is a very limited 
opportunity to try to have influence on their military. At 
times when we have made the mistake of cutting off IMET funds 
for a country, no matter how legitimate our concern was, we 
lost contact with a whole generation of military people, and we 
have oftentimes paid the price for that lack of contact.
    So the gentleman, perhaps reluctantly, before we started 
the markup in the Subcommittee, I recall, agreed that he would 
be willing to drop the ending of IMET.
    So if we could have the timetable, the rapid restoration 
and a restoration of IMET, I can understand how the gentleman 
might want to say condemn.
    Mr. Gejdenson. Well, the gentleman asks for a little too 
much. I mean, I would love to work something out with the 
gentleman and not take up everybody's time, but I think the 
timetable alone is not the answer here. I mean, I could put 
several timetables in place, and I guess at that point every 
timetable I put in place would keep me in the good stead of the 
gentleman from Nebraska.
    Mr. Bereuter. I reclaim my time and would just say that the 
gentleman's language does not do anything except make us feel 
good and expresses our great concern because he asks for the 
immediate restoration. You know that is impossible.
    Mr. Gejdenson. If the gentleman would maybe suspend for a 
moment----
    Mr. Bereuter. I would yield to the gentleman.
    Mr. Gejdenson [continuing]. Allow some of the other Members 
to express themselves, maybe we can get counsel together and 
see if we can come up with some language. Frankly, I have been 
frustrated by the resistance to this proposal, but I am always 
trying to work something out with the Member from Nebraska, 
whom I have great respect for. So maybe the gentleman can 
suspend and the staffs can see if we can work something out.
    Mr. Bereuter. I yield to the gentleman from North Dakota. 
Did you ask me to yield or who was that? I yield to the 
gentleman from New Jersey.
    Mr. Rothman. I thank the gentleman.
    I am trying to think of the appropriate analogy for the 
gentleman from Nebraska with regard to the immediate language 
versus the rapid restoration. It is as if somebody broke into 
your home and stole something from you and then fenced the 
goods. The question is: What do you ask of the person? Do you 
ask for a rapid return or the immediate return?
    Now, obviously the person who fenced your stolen goods, 
after he stole them from your home, will not be able to 
immediately return it to you, but there is a certain power in 
demanding for immediate restoration of your own rights.
    That is No. 1.
    No. 2, if we are to be the fosterers, if that is the word, 
of democracy, the supporters of democracy throughout the world, 
we have to let our colleagues know that after 220 years of 
experience we have something to teach them. In particular, 
democracies will go through tough times, perhaps ruled by 
tyrants and corrupt Administrations, as has been the case in 
our beloved history here in America, but nonetheless, we have 
never sanctioned or approved the overthrow of our government, 
other than by the peaceful transfer of power through an 
election. So I cannot see, while the gentleman makes a good 
point, that perhaps the immediate restoration is not possible. 
I think that it is, in fact, the appropriate language.
    The gentleman makes an interesting point with regard to 
IMET. Hopefully, you and the gentleman from Connecticut can 
work that out, but we need to send a clear message to all the 
fledgling democracies, and I say all of this with enormous 
regard and respect for the gentleman from Nebraska who I 
generally agree with.
    Chairman Gilman [presiding.] Mr. Bereuter's time has 
expired.
    Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman.
    As Mr. Gejdenson tries to work something out with Mr. 
Bereuter, I want to speak up for Mr. Gejdenson's substitute. 
The fact of the matter is that I think we run a great risk of 
sending a message throughout the world that it is OK to go 
ahead and have a military coup, and that we will sit here idly, 
as a country to which we have given so much military assistance 
and weapons, in essence uses that assistance to overthrow their 
own government, as well as to be potentially antagonistic to 
their neighbors.
    It is impossible to believe that if, God forbid, tomorrow 
we here in the Congress are overtaken by a military coup that 
we would want the rest of the free world to remain silent while 
that, was taking place. It is impossible to believe that the 
simple condemnation of the overthrow of a democratically 
elected government, in violation of its own constitution, and 
the suspension of that constitution, and the dismissal of its 
national government is so objectionable, particularly given the 
grave concerns that we have for security and stability in South 
Asia. Mr. Chairman, can I have order, please? I can't hear 
myself.
    Chairman Gilman. The Committee will come to order, please, 
so the gentleman can be heard.
    Mr. Menendez, have you completed your statement?
    Mr. Menendez. Let me just simply say that it seems to me we 
have a double standard being advocated here. We continuously 
speak out against military coups in all parts of the world, and 
we clearly should be saying that there will be no further 
military armament sales to a country that has defied all of its 
own constitutional standards, not to mention our own beliefs 
and what we promote throughout the world.
    We should support Mr. Gejdenson's substitute, and I yield 
back the balance of my time.
    Chairman Gilman. Thank you, Mr. Menendez.
    Mr. Delahunt.
    Mr. Delahunt. I move the question.
    Chairman Gilman. That is out of order at the moment.
    Mr. Delahunt. Then I would just like to speak then, if I 
could.
    Chairman Gilman. We have two other speakers. Yes, Mr. 
Delahunt.
    Mr. Delahunt. Well, I just would like to suggest that in 
terms of stability in the subcontinent and the relationship 
between India and Pakistan, it was the former prime minister 
who was the target of the coup who initiated cross-diplomacy, 
who initiated efforts in terms of a detente, if you will, a 
rapprochement between India and Pakistan. It is also my 
understanding that it was the Pakistani military that roundly 
criticized the former Prime Minister Sharif, and that clearly 
was a factor in the equation that led to the coup. So, if we 
are interested in the relationship between Pakistan and India, 
we should condemn Pakistan and this military coup d'etat in the 
strongest possible terms, and I support the Gejdenson 
Amendment.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, I voted against the effort 
in Committee to water down this resolution in the first place, 
and I certainly agree with Mr. Gejdenson that we must use the 
strongest possible terms to not only condemn but also to set a 
course for American foreign policy, especially when a 
democratically elected government is overthrown by a military 
power.
    I will go very quickly, Mr. Gejdenson, because I know you 
have reached your compromise and I will be supporting that 
compromise--no, you haven't? I am supporting Mr. Gejdenson, 
even if he didn't reach a compromise, but let me be very 
specific on one item here.
    This military regime has not even gone so far as to 
announce the date of a plebiscite. If they believe that they 
have the will of the people behind them and that they have this 
overwhelming corruption that mandated their interference with 
the democratic process, at the very least they needed to go to 
the people and have the people give them some kind of a 
recognition of that. We believe that the government derives its 
just powers from the consent of the governed, and if they do 
not have that consent of the governed, at least in the form of 
a plebiscite, what we face in Pakistan is nothing more than a 
group of gangsters with guns overthrowing a democratically 
elected government.
    Now, again, if they announce within the next month that 
they are going to have a plebiscite to justify so the public 
will have an up-and-down vote on this, then maybe we can come 
back and look again at what our policy should be. But until 
that moment and until there is a vote, it is incumbent upon us 
to say stability is not the factor, but freedom and justice--
and the very heart of our value system in the United States 
demands that we take another position rather than stability.
    Finally, Mr. Chairman, I would like to say that India, 
again, India has not used the ballot box to solve the problem 
in the Kashmir, and I don't want people to forget this. I have 
been a big supporter of Pakistan on that issue, but the fact is 
today we side with the people of Pakistan when we side with 
democracy, and let the people of Pakistan make their own 
determination as to who their government will be.
    So, with that, I yield back the balance of my time.
    Chairman Gilman. Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman.
    Let me say how much I appreciate the remarks of the 
gentleman from California on this issue.
    I have a formal statement that I will make in a couple of 
seconds, but just a couple of points that need clearing up, I 
believe.
    First of all, General Musharraf has already gone on record 
on BBC that he is not going to have a plebiscite. So for those 
people that are hanging their hopes on the notion that he is 
going to have a plebiscite any time soon, you should know that 
by his own statement he is not.
    In addition to that, it should be noted, although a 
technicality, for the record, that former deposed Prime 
Minister Sharif had said that they were going to withdraw the 
troops from the line of control. General Musharraf, 
nonetheless, has withdrawn them to the international border. 
They are still right up against the line of control.
    So that is not accurate, either.
    We seem to be wishy-washy here for some reason, and I don't 
know why. You have a military coup that overthrew a 
democratically elected government, regardless of what one might 
have thought of the government, and the generals have taken 
power.
    I am generally in favor of IMET in almost every single 
circumstance, and that is why military leaders from other 
countries come here--so we can teach them how to act 
democratically. Why on earth, in this case, would we seek to 
legitimize the generals on the other side who overthrew the 
government, usurped civilian authority and are now the 
government? Then we are going to say as a reward for them 
overthrowing the civilian government we are going to teach them 
how to get along with the population? It is an air of 
legitimacy that we should not be giving them.
    I think this has been a very, very good debate, and I would 
hope that our friends on the other side, some of whom have 
spoken and some of whom have left, would not be attempting to 
deny us a quorum so that we could proceed to this vote at the 
appropriate time, Mr. Chairman, because that also would be a 
thwarting of the democratic process.
    Let us have the vote, whichever way it turns out, and abide 
by the process.
    Chairman Gilman. Thank you, Mr. Ackerman.
    Mr. Ackerman. I would like to ask unanimous consent that my 
prepared statement be inserted in the record.
    Chairman Gilman. Without objection.
    [The prepared statement of Mr. Ackerman appears in the 
appendix.]
    Chairman Gilman. The question is now on the Gejdenson 
Amendment. All those in favor, signify in the usual manner. 
Opposed?
    The Gejdenson amendment is carried.
    Mr. Gejdenson. I ask for a record vote.
    Chairman Gilman. Mr. Gejdenson asks for a record vote.
    Mr. Bereuter. Mr. Chairman, reserving a point of order.
    Chairman Gilman. The gentleman will state his point of 
order.
    Mr. Bereuter. Mr. Chairman, I would suggest that a quorum 
is not present.
    I just want my colleagues to know that I heard what Mr. 
Ackerman had to say. There are other issues that we need to 
cooperate on.
    So I withdraw my point of order. I withdraw my reservation.
    Chairman Gilman. The gentleman withdraws his point of order 
and withdraws his reservation. The question is on the Gejdenson 
Amendment. Roll call. All in favor of a roll call, signify in 
the usual manner, raise their hands.
    A sufficient number. The clerk will call the roll on the 
Gejdenson Amendment.
    Ms. Bloomer. Mr. Gilman.
    Chairman Gilman. Aye.
    Ms. Bloomer. Mr. Gilman votes yes.
    Mr. Goodling.
    [no response.]
    Ms. Bloomer. Mr. Leach.
    [no response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. No.
    Ms. Bloomer. Mr. Bereuter votes no.
    Mr. Smith.
    [No response.]
    Ms. Bloomer. Mr. Burton.
    [No response.]
    Ms. Bloomer. Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Yes.
    Ms. Bloomer. Ms. Ros-Lehtinen votes yes.
    Mr. Ballenger.
    [No response.]
    Ms. Bloomer. Mr. Rohrabacher.
    Mr. Rohrabacher. Yes.
    Ms. Bloomer. Mr. Rohrabacher votes yes.
    Mr. Manzullo.
    [no response.]
    Ms. Bloomer. Mr. Royce.
    [No response.]
    Ms. Bloomer. Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    [No response.]
    Ms. Bloomer. Mr. Sanford.
    [No response.]
    Ms. Bloomer. Mr. Salmon.
    [No response.]
    Ms. Bloomer. Mr. Houghton.
    [No response.]
    Ms. Bloomer. Mr. Campbell.
    [No response.]
    Ms. Bloomer. Mr. McHugh.
    [No response.]
    Ms. Bloomer. Mr. Brady.
    [No response.]
    Ms. Bloomer. Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    [No response.]
    Ms. Bloomer. Mr. Radanovich.
    Mr. Radanovich. Aye.
    Ms. Bloomer. Mr. Radanovich votes yes.
    Mr. Cooksey.
    Mr. Cooksey. Yes.
    Ms. Bloomer. Mr. Cooksey votes yes.
    Mr. Tancredo.
    [No response.]
    Ms. Bloomer. Mr. Gejdenson.
    Mr. Gejdenson. Aye.
    Ms. Bloomer. Mr. Gejdenson votes yes.
    Mr. Lantos.
    [No response.]
    Ms. Bloomer. Mr. Berman.
    Mr. Berman. Aye.
    Ms. Bloomer. Mr. Berman votes yes.
    Mr. Ackerman.
    Mr. Ackerman. Yes.
    Ms. Bloomer. Mr. Ackerman votes yes.
    Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    [No response.]
    Ms. Bloomer. Mr. Menendez.
    Mr. Menendez. Yes.
    Ms. Bloomer. Mr. Menendez votes yes.
    Mr. Brown.
    Mr. Brown. Yes.
    Ms. Bloomer. Mr. Brown votes yes.
    Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    [No response.]
    Ms. Bloomer. Ms. Danner.
    Ms. Danner. Aye.
    Ms. Bloomer. Ms. Danner votes yes.
    Mr. Hilliard.
    Mr. Hilliard. Yes.
    Ms. Bloomer. Mr. Hilliard votes yes.
    Mr. Sherman.
    Mr. Sherman. Yes.
    Ms. Bloomer. Mr. Sherman votes yes.
    Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Rothman.
    Mr. Rothman. Aye.
    Ms. Bloomer. Mr. Rothman votes yes.
    Mr. Davis.
    Mr. Davis. Yes.
    Ms. Bloomer. Mr. Davis votes yes.
    Mr. Pomeroy.
    Mr. Pomeroy. Aye.
    Ms. Bloomer. Mr. Pomeroy votes yes.
    Mr. Delahunt.
    Mr. Delahunt. Yes.
    Ms. Bloomer. Mr. Delahunt votes yes.
    Mr. Meeks.
    [No response.]
    Ms. Bloomer. Ms. Lee.
    Ms. Lee. Aye.
    Ms. Bloomer. Ms. Lee votes yes.
    Mr. Crowley.
    Mr. Crowley. Aye.
    Ms. Bloomer. Mr. Crowley votes yes.
    Mr. Hoeffel.
    Mr. Hoeffel. Yes.
    Ms. Bloomer. Mr. Hoeffel votes yes.
    Chairman Gilman. The clerk will call the absentees.
    Ms. Bloomer. Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Smith.
    Mr. Smith. Aye.
    Ms. Bloomer. Mr. Smith votes yes.
    Mr. Burton.
    Mr. Burton. No.
    Ms. Bloomer. Mr. Burton votes no.
    Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    Mr. Ballenger. No.
    Ms. Bloomer. Mr. Ballenger votes no.
    Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. Royce.
    [No response.]
    Ms. Bloomer. Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    [No response.]
    Ms. Bloomer. Mr. Sanford.
    [No response.]
    Ms. Bloomer. Mr. Salmon.
    [No response.]
    Ms. Bloomer. Mr. Houghton.
    [No response.]
    Ms. Bloomer. Mr. Campbell.
    [No response.]
    Ms. Bloomer. Mr. McHugh.
    [No response.]
    Ms. Bloomer. Mr. Brady.
    [No response.]
    Ms. Bloomer. Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    [No response.]
    Ms. Bloomer. Mr. Tancredo.
    [No response.]
    Ms. Bloomer. Mr. Lantos.
    [No response.]
    Ms. Bloomer. Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    Mr. Martinez. No.
    Ms. Bloomer. Mr. Martinez votes no.
    Mr. Payne.
    [No response.]
    Ms. Bloomer. Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    [No response.]
    Ms. Bloomer. Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Meeks.
    [No response.]
    Chairman Gilman. The clerk will report the tally.
    Ms. Bloomer. On this vote, there were 21 ayes and 4 noes.
    Chairman Gilman. The amendment is agreed to.
    The question is on the----
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, may I be recognized on the 
resolution, as amended?
    Chairman Gilman. The gentleman is recognized for 5 minutes 
on the resolution, as amended.
    Mr. Bereuter. Thank you, Mr. Chairman.
    There are matters of degree and matters of concern. We have 
had a good debate on these issues. I happen to disagree with 
the emphasis on the one item in particular, but I always will 
have to vote no on stopping IMET.
    IMET always has a positive effect, almost always, on all 
the people that train in this country, and I want it to be 
known that my vote against the resolution as now amended will 
be because of what you have done to IMET.
    I yield back.
    Mr. Berman. Will the gentleman yield?
    Mr. Bereuter. Yes, I yield. I would yield to the gentleman 
from California.
    Mr. Berman. I have tended to agree with that proposition, 
but watching events in Indonesia over the past 4 months--and I 
understand that IMET was massively restricted, but we still had 
an IMET Program--this did not seem like an army that respected 
civilian rights or even command and control from the top. I say 
that sincerely. It seems to me that there were examples of 
people who were the beneficiaries of IMET who, in terms of 
their conduct at that particular time, will not demonstrate----
    Mr. Bereuter. Reclaiming my time, Mr. Berman, I would just 
like to remind the gentleman, I believe I am correct on this, 
that IMET Program, which we revised to E-IMET to emphasize more 
human rights, had been stopped, and our military was criticized 
for therefore instituting something else or a training program 
without authorization or without specific notice to the 
Congress. But I believe that the E-IMET Program and IMET 
Program had been stopped some time ago. I yield back.
    Chairman Gilman. The question is on agreeing to the 
Subcommittee recommendations.
    Mr. Burton. Mr. Chairman.
    Chairman Gilman. Mr. Burton.
    Mr. Burton. I don't know whether we have a quorum or not, 
but I would like to make a point of order that a quorum is not 
present, and we can take a count.
    Chairman Gilman. We will suspend, and the clerk----
    Mr. Ackerman. Point of order, Mr. Chairman.
    Chairman Gilman. What is the gentleman's point of order?
    Mr. Ackerman. I believe there is no vote pending, and 
therefore a motion that a quorum is not here is, I believe, not 
in order until a vote is requested.
    The last thing we did about 3 minutes ago was have a vote, 
and a quorum was present. Twenty-one and 4 is 25.
    Chairman Gilman. Let me resolve it. A quorum is present at 
the present time.
    The question is now on agreeing to the Subcommittee's 
recommendation in the nature of a substitute as amended. All in 
favor, say aye. All opposed, say no.
    The ayes have it.
    The gentlewoman from Florida, Ms. Ros-Lehtinen, is 
recognized to offer a motion.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    I move that the Chairman be requested to seek consideration 
of the pending resolution, as amended, on the suspension 
calendar.
    Chairman Gilman. The question is on the motion of the 
gentlelady from Florida. As many as are in favor of the motion, 
say aye. As many as are opposed, say no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.
    A quorum is present.
    We now proceed to H.Res. 169, referring to the Lao People's 
Democratic Republic, expressing the sense of the House relative 
to the Lao People's Democratic Republic.
    The Chair lays the resolution before the Committee. The 
clerk will report the title of the resolution.
    Ms. Bloomer. H.Res. 169, a resolution expressing the sense 
of the House of Representatives with respect to democracy, free 
elections, and human rights in the Lao People's Democratic 
Republic.
    Chairman Gilman. This resolution was considered by the 
Subcommittee on Asia and the Pacific, reported with an 
amendment in the nature of a substitute. Without objection, the 
Subcommittee recommendation will be considered as original text 
for the purposes of amendment. The preamble and operative 
language in the Subcommittee resolution will be read in that 
order for amendment. The clerk will read.
    Ms. Bloomer. Whereas, since the 1975 overthrow of the 
existing Royal Lao Government----
    Chairman Gilman. Without objection, the Subcommittee 
recommendation is considered as having been read, and is open 
to amendment at any point.
    [The information referred to appears in the appendix.]
    Chairman Gilman. I now recognize the distinguished 
gentleman from Nebraska, the Chairman of the Subcommittee of 
Asia and the Pacific, Mr. Bereuter, to introduce a resolution.
    Mr. Bereuter. Thank you, Mr. Chairman.
    This resolution, introduced by our colleague, Mr. Vento, 
deserves support.
    It was cosponsored by a number of our colleagues, including 
our colleague, Mr. Radanovich, as I recall, and also Mr. Green, 
who is in attendance here, and other Members.
    The amendments were purely technical, changing the names of 
the ruling parties and convention dates and so on. The major 
concerns I would have relate to the possibility, as I 
understand it, that the resolution will be amended to 
incorporate provisions from House Resolution 332.
    I would like to call my colleagues' attention to a memo 
distributed to you earlier this afternoon dated October 28, 
1999. It was addressed to Chairman Gilman, and I think it is 
important that you understand the context of the resolution 
before us by understanding what House Resolution 332 would do.
    That one was introduced by Representative Mark Green and 
cosponsored by the chairman, dealing primarily with the issue 
of the disappearance in Laos last April of two Laotian- 
Americans, Michael Vang and Mr. Ly Houa. I am not sure about 
the pronunciation of that name.
    No trace of these men has yet been found. There have been 
allegations that these men were apprehended and killed by Lao 
authorities. If true, this would be a deeply disturbing 
development. The men are constituents of Mr. Green and Mr. 
Radanovich, who are, rightly, extremely concerned about their 
welfare.
    As a result of our own preliminary investigation, it would 
seem that there are a number of unresolved issues surrounding 
these men's disappearance. The incident remains the subject of 
an ongoing FBI investigation requested by the U.S. Ambassador 
to Laos at the time, Ms. Wendy Chamberlain.
    While the circumstances of these men's disappearance remain 
murky, there have been a number of unproven and frequently 
contradictory reports that suggest, alternatively, that these 
men ran afoul of drug traffickers that haunt the area of the 
Golden Triangle where they disappeared, or that they ran afoul 
of Lao military authorities while involved in cross-border 
insurgent activities, or even that they may have disappeared 
for their own reasons.
    I am told there are also reports that Mr. Vang and Mr. Houa 
may have been engaged in illegal activities at the time of 
their disappearance.
    The FBI continues to investigate. I am concerned because of 
the unpleasant history that exists between Ambassador 
Chamberlain and certain elements of the Lao-American community. 
Her offense, I am told, is that she reiterated longstanding 
U.S. policy that the United States does not support the violent 
overthrow of any nation with which it has diplomatic relations.
    Other Laotian-Americans seem to be angry at her for 
successfully expressing fraudulent claims for political asylum. 
In 1998, she received death threats prior to a speech to Hmong 
and Lao-Americans in Minnesota, and an individual was 
discovered carrying a hand grenade in the crowd.
    In a subsequent meeting with other Laotian-Americans in 
Denver, where she was ordered to go by her superiors in order 
to discuss matters with a more conservative group of Hmong and 
Lao-Americans, additional credible death threats were issued, 
and the FBI had to provide her protection.
    I have met with our former Ambassador, Ambassador 
Chamberlain. I think she took the steps necessary to 
investigate it. She realized it was far more complicated than 
her capacity, and you will find attached a chronology of events 
that took place.
    [The information referred to appears in the appendix.]
    Mr. Bereuter. In short, nothing about the circumstances of 
this case appears clear at this time. Many of the details are 
highly classified, involve sources and methods of intelligence.
    On the same day I sent this memo, I asked, by letter, 
Chairman Porter Goss of the Permanent Select Committee on 
Intelligence to assist us in investigating this matter.
    I hope my colleagues will support the Vento Amendment, but 
be very careful about how it might be amended. Certainly, I 
think that there can be some accommodations made to Members who 
are legitimately very concerned about their constituents and 
their families, especially in the upper Midwest but also in 
California. But we have to be careful that we don't do 
something quite unprecedented, condemning a specific member of 
our Foreign Service where it is not clear that she deserves 
that condemnation.
    In fact, I suspect she does not. I think she took all of 
the proper steps--when she is under death threat in this 
country. People have to learn who are refugees or citizens or 
are applying for citizenship. We don't do violence to our 
Ambassadors when they are asked to come and speak to us.
    So I urge my colleagues to be very careful about this 
resolution and stick with the Vento Resolution as presented to 
you. I thank my colleagues.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I would like to join with my 
friend from Nebraska, who I think has a well-balanced view on 
this, and I would support his approach.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, I think that we have to 
understand that the government of Laos is not a government of 
Laos. We just talked about what happened in Pakistan. We had 
all these voices, Mr. Gejdenson's voice the strongest of all, 
talking about the importance of democracy. Yet in Laos we have 
a vicious dictatorship that makes the military regime in 
Pakistan look like a Betty Crocker cooking class, for Pete's 
sake.
    Mr. Gejdenson. Will the gentleman yield for one moment?
    Mr. Rohrabacher. I certainly will.
    Mr. Gejdenson. I will just tell you, I agree with the 
gentleman's assessment that the situation there is terrible. 
What I am not able to conclude is how these two individuals 
disappeared, or what they were involved in doing.
    Now, there are lots of allegations. As a Member of 
Congress, I am hesitant to bring out every allegation until 
there is a lot more evidence about these two individuals, but I 
have not seen evidence----
    Mr. Rohrabacher. OK. That is fair.
    Mr. Gejdenson [continuing]. That, as bad as this government 
is, and I agree with that, that the government has done that.
    Mr. Rohrabacher. OK.
    Mr. Gejdenson. I also am hesitant to just gratuitously 
attack American Ambassadors, and so I have those two basic 
problems with this bill.
    Mr. Rohrabacher. Reclaiming my time, let me make another 
point.
    Mr. Bereuter. Will the gentleman yield?
    Mr. Rohrabacher. I will be happy to do that after I make my 
point, Doug.
    Let us not give the benefit of doubt to some communist 
dictatorship in Laos while holding back the benefit of the 
doubt to two American citizens. The fact is, two American 
citizens have disappeared. They are not second-class citizens. 
They happen to have been born in another country, but they are 
not second-class citizens. They deserve every protection and 
every benefit of the doubt. Their government should move 
forward--assuming not that they are guilty of something, but 
assuming that they have not done something. We must not 
predicate our action on Laotians or other people who are going 
back into those areas that they may be doing something illegal. 
They have ties to their homeland.
    Mr. Radanovich. Mr. Chairman, point of order.
    Chairman Gilman. The gentleman will state his point of 
order.
    Mr. Radanovich. Mr. Chairman, we are discussing an 
amendment that hasn't even been introduced yet. I would like 
the privilege of offering it before we discuss it.
    Chairman Gilman. The gentleman is correct.
    Mr. Radanovich. Thank you.
    Mr. Bereuter. Will the gentleman yield?
    Mr. Rohrabacher. The gentleman's point is well taken, but I 
would be happy to yield to my good friend, Mr. Bereuter, 
because I know he has some points he needs to make.
    Mr. Bereuter. I will avoid discussing the amendment that 
may be offered--but hopefully won't. I would say to the 
gentleman I agree with his assessment of the Laotian 
government, as Mr. Gejdenson did.
    The important point, it seems to me, is that we should not, 
and do not, rely on the Laotian government and what they tell 
us, but we do, I think, have to give the benefit of the doubt 
when our own Foreign Service personnel, intelligence agencies 
and the FBI give us tentative reports at this point.
    I yield back and thank the gentleman.
    Mr. Rohrabacher. Let me just say for the record, I have 
been misled, and I have been given information that was not 
complete information by people in various embassies throughout 
the world.
    I cannot assume any longer that when I got to the 
Philippines they really couldn't help arrange that trip to the 
Spratlys, that their plane really was broken down, and I had to 
get a flight on a C-130 from the Philippine Air Force instead. 
I am sorry. I think that, frankly, I would rather assume the 
best about my Laotian-American citizens who disappear, rather 
than just assume that there is some question, murky question, 
being risen someplace, which they don't want to go into detail, 
by some embassy personnel somewhere.
    No one is justifying any threat of violence against any 
person who works for the U.S. Government, any one of our 
Ambassadors. We will condemn that over and over again. Clearly, 
Mr. Radanovich and everyone else--if anyone, I don't care if 
they are Laotian-Americans or whatever, threatens violence 
against an American diplomat anywhere, we are going to come 
down hard on them. But in this specific case, let's not assume 
the worst about two American citizens until that is absolutely 
proven.
    They disappeared. Their families and their community and 
their friends are crying out for help from their government. 
They are getting what? They are getting a lot of, well, maybe 
this and maybe that.
    Mr. Bereuter. Will the gentleman yield again?
    Mr. Rohrabacher. Yes, sir, I certainly will.
    Mr. Bereuter. I thank the gentleman.
    The point I tried to make is that we don't know the facts. 
We deserve to have the facts before we act. That is the only 
point.
    Mr. Rohrabacher. All right. With that, listen, let me just 
say, Doug Bereuter is a sincere person, and Mr. Gejdenson 
obviously is a sincere person, and we are trying to do our 
best. In this particular case, I think we have got to be strong 
and forceful, just like we were when talking about Pakistan a 
few moments ago. In this case, it is even worse because the 
lives of two American citizens are just being taken for 
granted.
    Chairman Gilman. The gentleman's time has expired.
    Does any other Member seek recognition?
    Mr. Radanovich. I do, Mr. Chairman. I would like to offer 
an amendment.
    Chairman Gilman. Mr. Radanovich has an amendment at the 
desk.
    Mr. Bereuter. Mr. Chairman, I reserve a point of order.
    Chairman Gilman. The gentleman will state his point of 
order.
    Mr. Bereuter. I am just reserving a point of order.
    Chairman Gilman. The gentleman is entitled to reserve his 
point of order.
    The clerk will report the amendment and distribute it.
    Mr. Ackerman. Mr. Chairman, I reserve a point of order as 
well.
    Chairman Gilman. The gentleman reserves a point of order.
    Ms. Bloomer. Perfecting amendment offered by Mr. 
Radanovich. Add the following to the preamble: Whereas two 
United States citizens, Mr. Houa Ly, a resident of Appleton, 
Wisconsin, and Mr. Michael Vang, a resident of Fresno, 
California----
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    [The information referred to appears in the appendix.]
    Chairman Gilman. The gentleman is recognized for 5 minutes 
on his amendment.
    Mr. Radanovich. Thank you, Mr. Chairman.
    My perfecting amendment adds important information from a 
bill that Mr. Green of Wisconsin and I introduced last month, a 
bill that enjoyed ten original cosponsors, including you, Mr. 
Chairman, and Mr. Rohrabacher and Mr. Smith of this Committee. 
I believe that my amendment is a fair compromise and retains 
much of the original language of H.R. 169, while strengthening 
it significantly.
    I believe it is imperative that this bill address the case 
of two American citizens abducted in Laos last spring, a 
constituent of mine, Mr. Michel Vang of Fresno, California, and 
a constituent of Mr. Green's, Mr. Houa Ly of Appleton, 
Wisconsin.
    These two Hmong-American citizens were traveling along the 
border between Laos and Thailand in April of this year when 
they were seized by Lao Government authorities. Mr. Vang and 
Mr. Ly have not been heard from since.
    Now, normally when American citizens are abducted by 
another country, the State Department would condemn the action, 
warn the country of possible sanctions or even launch an 
independent investigation. However, our State Department's only 
and best response has been to coordinate an investigation in 
cooperation with Lao authorities.
    This cooperative approach was not meant to yield real 
results. Ironically, our State Department is working hard on 
Capitol Hill to garner support for normalized trade relations 
for Laos.
    My amendment to H.R. 169 keeps much needed pressure on both 
the Lao Government and the State Department to provide us with 
the truth. In my mind, NTR for Lao's should not be considered 
until this case is resolved, although NTR is not a part of this 
bill and their human rights record has been seriously 
addressed.
    My amendment to H.R. 169 emphasizes our dissatisfaction 
with the State Department's flawed investigative process. Our 
resolution calls on the Lao authorities to release all 
information about Mr. Vang and Mr. Ly immediately and discuss 
the serious consequences of acts of aggressions against 
American citizens.
    I believe that we would be remiss to take up a bill 
regarding human rights abuses in Laos and neglect to address 
the case of two American citizens abducted by Lao authorities. 
Again, I am sympathetic to the issue regarding Ambassador 
Chamberlain, but I would say that as the investigation is 
ongoing, the families who are also American citizens back here 
have no word at all about the fate of their husbands, whether 
they have been killed and, if so, by whom, which ought to be 
resolved immediately.
    We are talking about American citizens, and the families 
who are American citizens in this country have a right to know.
    Chairman Gilman. Thank you, Mr. Radanovich.
    Mr. Ackerman.
    Mr. Ackerman. I withdraw my point of order.
    Chairman Gilman. Mr. Ackerman withdraws his point of order.
    Are any other Members seeking recognition?
    Ms. Danner.
    Ms. Danner. Thank you, Mr. Chairman. I would just like some 
clarification, and I will admit to you I am not wearing my 
glasses, but let's look on what is titled as page 4, you have 
numeral 2 there, and then you have one line slashed through it. 
Then you have 3. If that is not numeral 2 because of the slash, 
then the numbers are misordered.
    Then as one goes to the bottom of the handwritten section 
on that page, do we skip from the ``and'' at the bottom of page 
4 to the ``amend'' on page 5?
    Mr. Radanovich. If I may, regarding the top of page 4 where 
it originally read as section 3 is called section 2.
    Ms. Danner. Yes.
    Mr. Radanovich. That paragraph is intact. I am sorry for 
the line crossing it out. It is misleading.
    The only part that is not included in that section are the 
words, ``and the Department of State.''
    Ms. Danner. OK.
    Mr. Radanovich. As to the second question, you read it 
correctly.
    Ms. Danner. Thank you.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Ms. Danner.
    Mr. Bereuter. Mr. Chairman, may I ask that the State 
Department be allowed to address some questions here?
    Chairman Gilman. Is there someone from the State Department 
here? Would you please take this chair? Please identify 
yourself.
    Ms. Jacobs. Thank you, Mr. Chairman.
    Chairman Gilman. Please identify yourself.
    Ms. Jacobs. My name is Susan Jacobs and I am a Deputy 
Assistant Secretary of State in Legislative Affairs at the 
Department of State.
    Chairman Gilman. Thank you.
    Mr. Bereuter.
    Mr. Bereuter. Thank you.
    Ms. Jacobs, first of all, the amendment, as you have noted, 
has been changed from the original text of H.Res. 332. I don't 
know if you have been able to follow it or if you have it in 
front of you.
    Ms. Jacobs. I have the perfecting amendment in front of me.
    Mr. Bereuter. If I could, I think the gentleman from 
California's--I think I have it--but on page 4, for example, 
the gentleman in subparagraphs 3 and 4, which would remain in 
his amendment, urges the Lao Government to return Messrs. Vang 
and Ly or their remains to U.S. authorities and their families 
in America at once. That is assuming they would have them, 
those remains or those missing persons.
    The gentleman also warns, number 4, the Lao Government of 
the serious consequences, including sanctions, of any 
unjustified arrest, abduction, imprisonment, disappearance or 
other acts of aggression against U.S. citizens.
    Now, it seems to me that while we do not appropriately jump 
to the conclusion that they have been abducted or that they 
have been killed, we don't know, these two paragraphs would not 
appear to be damaging to a resolution we might pass.
    Ms. Jacobs, would you care to comment on those two specific 
subparagraphs?
    Ms. Jacobs. I would agree with your assessment, sir. We 
feel terrible that we don't know what has happened to these two 
men. We are making every effort that we can. Ambassador 
Chamberlain, who left post in--I believe it was the end of 
May--did call in the FBI because she didn't want to rely 
totally on the Laotian Government.
    So I think that to characterize her and to condemn her is 
incredibly unfair.
    Mr. Bereuter. So, Ms. Jacobs, then on page 3, the two 
following whereas clauses that are there, make specific 
reference to failures of the U.S. Government and negative 
assessment about Ambassador Chamberlain, as I would read it. 
Does the State Department accept those or reject those?
    Ms. Jacobs. I totally reject those. I think that she did 
exactly what she could do, and especially by calling in the 
FBI, she went beyond what an ambassador would normally do.
    Mr. Bereuter. She indicated to me she thought this was such 
a grave matter and so serious that she did not have the 
capacity within her embassy or any attached groups to 
investigate it fully. So my understanding, from the cable 
traffic and from the chronology that resulted from it, is she 
immediately called in for outside assistance from the Federal 
Bureau of Investigation; perhaps intelligence agencies as well. 
Is that your understanding?
    Ms. Jacobs. That is absolutely correct, sir. Most embassies 
do not have separate investigative abilities, and she did 
absolutely the right thing by calling in the FBI and relying on 
other agencies to assist in the investigation.
    Chairman Gilman. Will the gentleman yield?
    Mr. Ackerman. Will the gentleman yield?
    Mr. Bereuter. I will be happy to yield, to the Chairman 
first and then to Mr. Ackerman.
    Chairman Gilman. Thank you.
    Ms. Jacobs, you say this resolution condemns the 
Ambassador, and yet I am reading the paragraph on page 3, 
``Whereas the chief response to this incident by the Department 
of State and U.S. Ambassador to Laos Wendy Chamberlain has been 
to undertake an investigation in cooperation with the regime in 
Laos--a regime involved with the disappearance of Messrs. Ly 
and Vang.'' I don't see any condemnation of Ambassador 
Chamberlain.
    Ms. Jacobs. I think with all due respect, Mr. Chairman, I 
think it jumps to a conclusion. We don't know how these men 
disappeared yet, and it doesn't go far enough in saying that 
she did call in the FBI. She did not rely on the Laotian 
Government.
    Chairman Gilman. But the paragraph says she did undertake 
an investigation in cooperation with the regime. She undertook 
an investigation; is that a fact?
    Ms. Jacobs. But it begins the characterization by saying 
that was her chief response.
    Her chief response was to call in the FBI and to seek their 
assistance.
    Chairman Gilman. I think we are playing with words. I don't 
think that paragraph is intended to hurt the reputation of the 
Ambassador. It just recites what the facts were.
    Ms. Jacobs. I would suggest, then, that it clarify 
everything that she did, and not say that is all that she did, 
with all due respect.
    Chairman Gilman. I yield back to Mr. Bereuter.
    Mr. Radanovich. Mr. Chairman.
    Chairman Gilman. Mr. Bereuter's time has expired.
    Mr. Ackerman.
    Mr. Ackerman. Yes. On my own time then, Mr. Chairman?
    Chairman Gilman. Yes, you are recognized for 5 minutes.
    Mr. Ackerman. Thank you. Mr. Chairman, those two 
paragraphs, taken as a whole, are fairly pejorative and 
negative toward both the U.S. Government, particularly the 
State Department, and to the Ambassador.
    Basically, it reads, and it depends on your emphasis, it is 
not a positive statement to say that she engaged in an 
investigation. This basically says the only thing she did was 
to collude with a corrupt, lying son-of-a-gun government.
    Chairman Gilman. Would the gentleman yield? It doesn't say 
the only thing. It says, ``Whereas the chief response. . .''
    Mr. Ackerman. Yes. It says her chief response, which means 
the main thing that she did was to be in cahoots with this 
horrible, corrupt, thieving, conniving government made up of a 
bunch of SOB's--a regime that is involved with the 
disappearance.
    It accuses the regime of being in cahoots with the 
disappearance, and of the Ambassador being in collusion because 
she only is cooperating with the people who it says abducted 
them.
    Mr. Chairman, I think there is a growing consensus that 
there are a great number of us on the Committee, on both sides 
of the aisle, that would be willing to support the resolution 
if it could be accepted by Mr. Bereuter, or whoever, that we 
just drop those two paragraphs on page 3.
    The rest of it, I think, is acceptable.
    Chairman Gilman. I thank the gentleman for his comments. I 
think they are attempting to work out some of the language that 
might satisfy the gentleman.
    Mr. Ackerman. Would that be acceptable to Mr. Bereuter and/
or Mr. Radanovich?
    Mr. Radanovich. What was that? I am sorry. We were talking.
    Mr. Ackerman. If on page 3, two of those whereas clauses 
were just dropped.
    Mr. Bereuter. Would the gentleman yield?
    Mr. Ackerman. I certainly do.
    Mr. Bereuter. I have been discussing that with Mr. 
Radanovich. He can speak for himself but I suggested those two 
are problematic. I believe our staffs are working also on 
subparagraph 4, original subparagraph 4, on page 4.
    We don't know that the Lao Government has abducted them; 
but you could say if it is determined that they have, then we 
urge them to return such and such to the authorities or their 
families in the U.S. But I think those things would----
    Mr. Ackerman. I would agree with the gentleman from 
Nebraska.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, I would like to ask our 
State Department witnesses just a couple upfront questions. Is 
it your testimony that there is no evidence suggesting that the 
Lao Government had anything to do with the disappearance of 
these two American citizens?
    Ms. Jacobs. I don't have the evidence at my disposal. I 
don't know what we know and what we don't know.
    Mr. Rohrabacher. That is not the question I asked. Are you 
testifying that there is no evidence, that--you are not 
testifying to that; is that correct?
    Ms. Jacobs. Sir, I don't know what we know.
    Mr. Rohrabacher. So, OK. So you are testifying that we 
don't know? OK. You are not testifying that there is no 
evidence? You are testifying that you don't know.
    What about you? Are you testifying, sir, the gentleman 
here? Anybody else from the State Department here?
    Ms. Jacobs. Apparently there are contradictory reports but 
no evidence.
    Mr. Rohrabacher. OK. Is there anyone else from the State 
Department here that is testifying on this issue?
    Ms. Jacobs. No.
    Mr. Rohrabacher. So the State Department's position is 
what?
    Ms. Jacobs. Our position is that there are many 
contradictory reports. We don't know what the truth is.
    Mr. Rohrabacher. Oh, so there are some reports that the 
government had something to do with the disappearance?
    Ms. Jacobs. I don't know the content of the reports.
    Mr. Rohrabacher. You just said there were contradictory 
reports.
    Ms. Jacobs. But I didn't say who they were from.
    Mr. Rohrabacher. I didn't ask you who they were from. I 
asked you whether or not there was a report suggesting that the 
government of Laos was involved in their disappearance. You 
have just indicated, yes, there are contradictory reports.
    Mr. Ackerman. Mr. Chairman.
    Ms. Jacobs. I do not know what is in the report.
    Mr. Ackerman. Will the gentleman yield?
    Mr. Rohrabacher. No, I will not yield. I think this is 
important. We finally got her to a point where she is telling 
us something, after we dig it out.
    Mr. Gejdenson. Could I just make one suggestion, and you 
are doing a great job here and I think you have gotten them to 
say some things they didn't want to say, but I would suggest 
that you get the intel briefing and maybe all the Committee 
Members ought to get the intel briefing before we make the 
assumption of fact.
    Mr. Rohrabacher. OK. I think that is a very good 
suggestion, especially after we have testimony from the State 
Department trying to lead us in exactly one direction, but 
after three or four questions we hear something taking us back 
in the other direction. I want to state for the record, Mr. 
Chairman, that this is not--some people wonder why we have some 
problems when the Ambassador tells us or someone tells us 
something.
    Let me ask you this: Has the Ambassador reported to you 
that there is no evidence suggesting that the government was 
involved in the disappearance?
    Ms. Jacobs. The Ambassador left post in May. I have not 
talked to her about this case.
    Mr. Rohrabacher. You have not spoken to the Ambassador 
about this case?
    Ms. Jacobs. No, I have not.
    Mr. Rohrabacher. And did you not know that this was going 
to be brought up today?
    Ms. Jacobs. I was told about it at the last minute.
    Mr. Rohrabacher. So someone in your office just neglected 
to tell you, and that is why you didn't call up the Ambassador 
to talk to her about it?
    Ms. Jacobs. I did not think that I would be up here 
testifying about this resolution.
    Mr. Rohrabacher. All right. We didn't bother to ask about 
it all these months, either? You haven't bothered to ask the 
Ambassador all of these months about the disappearance of these 
two people?
    Mr. Gejdenson. If the gentleman would yield, it is not her 
responsibility. I think part of the confusion here may be that 
during all the months, any questions probably didn't go to her 
but went to somebody else.
    Mr. Rohrabacher. OK, that is fair.
    Mr. Gejdenson. She sent in, when we gave her a list of 
bills----
    Mr. Rohrabacher. If she is here testifying now in order to 
undermine this effort, that is her job because the State 
Department----
    Mr. Gejdenson. That may be an unfair characterization.
    Mr. Rohrabacher [continuing]. Does not believe in what this 
amendment is all about.
    I would like to close. My time is coming to an end, and let 
me just say that we came here with the State Department saying 
one thing. After three or four questions, they were saying 
something else totally different. Thank you.
    Ms. Jacobs. That is not true.
    Chairman Gilman. Mr. Payne.
    Mr. Payne. I, too, perhaps would support the resolution if 
those two whereas clauses were removed.
    I haven't heard anything different from the State 
Department that my colleague has heard--allegations of 
undermining the effort--and I guess you are accusing the State 
Department of being confused.
    There is some confusion out here. I am not willing to say 
where I think it is, but I believe that we ought to take a look 
at the cables. I think that if these whereases, which extend 
to--when you say a chief response, I don't know what else you 
can interpret. ``Chief'' means the most prominent or the main 
response.
    Mr. Radanovich. I will agree to take ``chief'' out, just 
line ``chief'' out.
    Mr. Payne. The gentleman previously suggested if the two 
whereases were taken out--I think it doesn't change what we are 
trying to get at, and I would certainly be willing to support 
your amendment. I would just like to add that to it and 
hopefully we can come up with something in a compromising way 
to achieve the goal you want to achieve.
    Chairman Gilman. Mr. Radanovich.
    Mr. Radanovich. I would like to ask a question of the State 
Department official, if I may.
    Chairman Gilman. Ms. Jacobs?
    Ms. Jacobs. Yes, sir.
    Chairman Gilman. Without objection.
    Mr. Radanovich. Ms. Jacobs, I wanted to ask you something, 
if you could answer me. When an incident like this occurs, 
where American citizens are abducted and not heard from in any 
country, and that country's government is perhaps a suspect in 
that person's or people's disappearance, what is the normal 
response of the State Department? Is it to conduct the 
investigation with that government, trying to determine the 
whereabouts of those people?
    Mr. Ackerman. Will the gentleman yield?
    Mr. Radanovich. Yes, but I want an answer.
    Mr. Ackerman. Just a clarification on your question. Is it 
clear that they were abducted?
    Mr. Radanovich. Well, they disappeared.
    Mr. Ackerman. So did my cat.
    Mr. Radanovich. It has been told, in fact--I would say this 
because it has been also alluded to--that they were drug 
trafficking which, to me, is unsubstantiated; and in as far as 
that has been said already, it has also been told that Laotian 
Government officials picked up these people and abducted them.
    If that is the case or if it is known, how does the State 
Department react to something like that? Do they conduct 
investigations in cooperation with the government that is 
suspected of abducting or complicit in these disappearances?
    Ms. Jacobs. I can't speak to this case because I am not 
familiar with all the details, but generally we do have to rely 
on the host government. But obviously Ambassador Chamberlain 
did not trust them to conduct a fair investigation and that is 
why she called in the FBI.
    If it were Britain, then we would have undoubtedly 
cooperated with the British police and other British 
authorities. But in this case, she was fearful that perhaps the 
Lao Government would not conduct a fair investigation, and she 
went beyond them and asked the FBI to come in and help 
investigate. That is not a normal thing.
    Mr. Radanovich. Right. Can you tell us, with regard to one 
of the whereases in this perfecting amendment, have the Ly 
family and the Vang family heard from the U.S. Government 
regarding the whereabouts or current circumstances of their 
loved ones?
    Ms. Jacobs. I understand the families are briefed weekly.
    Mr. Radanovich. They have been told nothing.
    Ms. Jacobs. There might not be anything to tell, that is 
the problem. We don't know what happened to them.
    Mr. Radanovich. I am sorry, I wish the family was here, but 
that just is not true. They have been told nothing.
    Ms. Jacobs. They haven't talked to representatives of the 
State Department?
    Mr. Radanovich. They have not been heard from, from the 
State Department. I yield to Mr. Green on that one, but I think 
there has been no response on that whatsoever.
    Chairman Gilman. Without objection, the gentleman from 
Wisconsin, Mr. Green, will be recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Mr. Chairman, given the 
lateness of the hour and the courtesy you have extended me, I 
will keep my remarks brief; but to that most important point, 
that simply is not true. My constituent, one of the two 
involved, has not been--the family has not been briefed.
    In fact, they came all the way out to Washington a month 
ago because they had not been briefed. They sat in my office 
with representatives of the FBI and the State Department and 
both entities pledged to keep my constituents briefed, and they 
have not done so. It has gotten so bad that in September, we 
had to take the extraordinary step of filing a Freedom of 
Information Act request. It was ignored.
    Weeks later, we were told that it was being processed. 
Still 2 months later, we do not have a response. We have not 
even received, and the family have not even received the 
declassified information, the declassified--I am not referring 
to the classified information, but the declassified 
information. That is true up through today.
    The State Department, from our perspective, and from the 
perspective of our constituents, has not been cooperating with 
us at all. With respect to the arguing over whether or not this 
was the chief response for the Ambassador or not, let us 
understand that when the FBI was brought in, the FBI conducted 
their investigation with the government of Laos.
    So it is fair to say that the chief response has been a 
joint investigation with Laos. I have not heard the FBI say 
that that isn't true. The language from which this resolution 
came is not intended in any way or form to condemn the 
Ambassador. There is only one reference to the Ambassador in 
the entire resolution, and that is the chief response language 
that we are referring to here.
    My grave concern from my limited perspective is the fact 
that my constituents, American citizens, are getting no help. 
They are not being responded to. They have not been given 
information. They have been given the runaround. I have not 
been able to help them. Even when in my office I have received 
a pledge of support, face to face with these people, we are 
still not getting the information that we need.
    Yes, there is unclear information out there, but I would 
submit to you that we aren't going to clear it up unless that 
information is provided to the surviving family members. I hope 
that the term, ``surviving,'' is accurate.
    But I urge you, please, we are heading toward the holidays, 
these family members deserve, they absolutely deserve 
cooperation and information from their own State Department. I 
think the fact that they aren't getting it is reprehensible. 
They are U.S. citizens, and this is wrong.
    That is the impetus behind this resolution and Congressman 
Radanovich's amendment. I am a cosponsor of the original 
underlying amendment. Congressman Vento is a cosponsor of our 
resolution as well from which this amendment comes.
    So again this is not an effort--and I do respect the 
sentiments of my friend and colleague Congressman Bereuter--
this is not an effort to condemn an Ambassador trying to reform 
a function. Instead, this is trying to point out the simple 
reality that the State Department has not cooperated, not come 
forward in this, and our constituents are still hanging out 
there with very little to show for all of their efforts.
    Chairman Gilman. Thank you.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. Let me just suggest 
two things, and I think our friend Mr. Radanovich said it when 
he was talking about the FBI statement; he said it wasn't 
substantiated, the reference to these two individuals from the 
United States as being drug dealers. I think that is the issue: 
What can we substantiate?
    What I would recommend is if we really want to move 
forward, and I am happy to play a more active role, frankly, 
than I have today, because a lot of things are before us--I 
would recommend that we move with Mr. Bereuter's underlying 
resolution--I guess it is Mr. Vento's resolution to begin with, 
and move that.
    If Mr. Bereuter has some more language that frankly would 
meet you some of the way, we ought to take that. Then I will 
personally try to get more information to see if there is 
substantiation of the charges.
    The reason I say that is, in some ways it is very easy for 
us in Congress to vote almost anything out, but the information 
that I have at this stage doesn't give me, even for a 
government that I think does very terrible things and clearly 
is not democratic--no debate on that--clearly I think we all 
agree on that, but we don't want to rush forward with a 
conclusion that we can't substantiate.
    If we find after a briefing for Committee Members, the kind 
of evidence that I think the two of you believe they have, we 
will work with you to try to take a step forward. I think you 
will be better off in that process. But obviously you have your 
prerogatives, and I wouldn't ask you not to do it just on that 
basis, but I think we will be more effective if we start with 
the underlying Vento Resolution, with Mr. Bereuter's pushing 
forward, maybe adopt some of the language that he has offered, 
trying to reach as far as he feels he is comfortable doing 
today.
    Then I will go--and I am sure Mr. Bereuter joins me--will 
go, will see--if you can convince us, we will be your strongest 
advocates here.
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman, I would like to try 
a unanimous consent request.
    Chairman Gilman. Without objection.
    Mr. Bereuter. I believe these two gentlemen and others who 
have offered this resolution, which in part is being offered 
here as a substitute, are doing their very best to try to serve 
their constituents, and appropriately so.
    I want to suggest the following. It is a little 
complicated, but I think if I am careful in giving directions 
you can understand what I am going to suggest, that we add as 
part of unanimous consent under a separate section within the 
underlying Vento Bill.
    If you turn to page 3, the last whereas clause, I will pick 
up that entire clause: ``Whereas the Congress will not tolerate 
any unjustified arrest, abduction, imprisonment, disappearance, 
or other act of aggression against United States citizens by a 
foreign government: Now, therefore be it``--and then we would 
move down to lines 1 through 4 in the first of the clauses, 
``That the House of Representatives decries the----''
    Chairman Gilman. Would the gentleman yield? What section 
are you referring to now, and what page?
    Mr. Bereuter. Page 3, moving down to the first clause found 
on lines 1 through 4.
    Chairman Gilman. Are we now referring to the Vento Bill?
    Mr. Bereuter. We are now referring to the amendment which 
is under consideration, the substitute offered by Mr. 
Radanovich.
    Chairman Gilman. The Radanovich Amendment?
    Mr. Bereuter. Yes, sir. Instead of ``abduction,'' it would 
say ``decries the disappearance of Houa Ly and Michael Vang, 
recognizing it as an incident worthy of congressional 
attention.''
    Move to the next page, page 4 of the Radanovich substitute, 
pick up what was number 4 there, now labeled number 3, on lines 
6 through 9 saying, ``urges the Lao Government to return 
Messrs. Ly and Vang, or their remains, to the United States 
authorities and their families in America at once,'' if it is 
determined that they have or are responsible--and pick up then 
the next subsection, ``warns the Lao Government of the serious 
consequences, including sanctions, of any unjustified arrest, 
abduction, imprisonment, disappearance or other act of 
aggression against United States citizens.''
    Finally, to have a new subsection which says: ``Urges the 
State Department and other U.S. agencies to share the maximum 
amount of information with interested parties concerning the 
disappearance of,'' and we can name these two gentlemen.
    I would ask unanimous consent that we accept that as a 
separate new subsection within the Vento Resolution before us.
    Mr. Radanovich. I have a question.
    Chairman Gilman. Is there objection?
    Mr. Radanovich. Not an objection--just a question, if I 
may, to clarify.
    Chairman Gilman. Are you reserving the right to object?
    Mr. Radanovich. Yes.
    Chairman Gilman. Mr. Radanovich.
    Mr. Radanovich. OK. Mr. Bereuter, going back to page 3 at 
the top, there was mention regarding Ambassador Chamberlain's 
statement--and the whereas below that, the Ly and Vang families 
not being able to learn much in the U.S. Government regarding 
that. In your unanimous consent, were those included or not?
    Mr. Bereuter. I didn't, but I am willing to. That was an 
oversight on my part. We could accept that.
    Mr. Radanovich. OK.
    Mr. Bereuter. You are talking about the ``Whereas the 
families of Messrs. Ly and Vang''?
    Mr. Radanovich. Yes.
    Mr. Bereuter. I am certainly willing to add that to the 
unanimous consent.
    Mr. Radanovich. And the one above that regarding the 
Ambassador?
    Mr. Bereuter. I think that is again criticizing our 
government inappropriately, and it is not germane.
    Mr. Radanovich. Being sympathetic to the issues brought 
about by the Ambassador, I would be willing to strike that 
portion, then. I agree with you.
    Mr. Bereuter. Thank you.
    Chairman Gilman. Reserving the right to object. Is there 
any of the page 2 material being included in Mr. Bereuter's 
proposal?
    Mr. Bereuter. No.
    Chairman Gilman. There is no reference to these people 
prior to your new paragraphs. I suggest you may want to include 
the provisions on page 2.
    Mr. Bereuter. I take your point. So the fifth whereas 
clause, ``Whereas two U.S. citizens,'' then they name them and 
their location, ``were traveling along the border between Laos 
and Thailand on April 19, 1999,'' and we go, of course, that 
the families of these people have learned very little from the 
U.S. Government concerning the whereabouts and the 
circumstances of their loved ones, which is Mr. Radanovich's 
proposal.
    So I would add, if the Chairman wishes, the fifth whereas 
clause on page 2.
    Chairman Gilman. And nothing else on page 2, Mr. Bereuter?
    Mr. Bereuter. I don't think it is necessary.
    Chairman Gilman. Is there any objection to Mr. Bereuter's 
proposal?
    Mr. Radanovich. Reserving the right to object. May I ask a 
question of Mr. Green?
    Chairman Gilman. The gentleman reserves the right to 
object. The gentleman is recognized.
    Mr. Radanovich. Thank you, Mr. Chairman.
    Mr. Green, you were privy to the classified information. 
This speaks to the section regarding--it warns that our 
government, if they were involved--and, the operative word I 
think is ``if''--in the unanimous consent request--you have 
been privy, Mr. Green, to all of the classified information 
regarding this incident.
    What is your opinion of that?
    Mr. Green. Well, let me just say this. I would remind--a 
number of the Committee Members are not aware of the long 
history involved here regarding the disappearance of these two 
individuals. There are actually four individuals that traveled 
together; two who disappeared, and their two friends who had, 
for lots of quirky reasons, gotten off at the time.
    The information provided by the two citizens who came back, 
which I would consider to be the most reliable information that 
we have--I am not privy to all the information--certainly 
suggested that there was Laos Government complicity.
    That is--we didn't just leap to a wild conclusion. This is 
what has been suggested publicly by these individuals, and I am 
not aware of it having been refuted. That is where the 
information comes from.
    If I can just, very quickly, in terms of all the language 
that Congressman Bereuter has suggested, if I may suggest, to 
put some kind of timeframe in here would help, too. I think it 
is important that this resolution be aimed at least a little 
bit at our own government, since the biggest problem that these 
families seem to be having is that our government isn't giving 
them information.
    So I think it is appropriate to at least reference the fact 
that it is our government which has declassified information 
which they are not sharing. Not classified, declassified 
information, sir. If I can make that suggestion--I think of 
urging them to do it as quickly as practical, or as soon as 
possible, whatever that may be. I think that would at least 
offer a little bit of solace to these people.
    Chairman Gilman. Would you set forth your proposal then, 
Mr. Green?
    Mr. Green. I don't know if that is appropriate.
    Chairman Gilman. Mr. Radanovich.
    Mr. Radanovich. No objection. We will keep the language as 
is suggested in the unanimous consent.
    Chairman Gilman. All right. Then Mr. Bereuter's proposal is 
now before the Committee.
    Are there any objections to Mr. Bereuter's proposal? Mr. 
Radanovich has made a suggestion, and Mr. Bereuter accepts that 
change; is that correct, Mr. Bereuter?
    Mr. Bereuter. Yes, I did; that one paragraph that the 
gentleman proposed to add back, I certainly did accept.
    Chairman Gilman. Without objection, the amendment is agreed 
to. Are there any further amendments?
    If there are no further amendments, the question is now on 
the Subcommittee recommendation as amended.
    As many are in favor, signify by saying aye.
    As many are opposed, say no.
    The ayes have it, and the Subcommittee recommendation is 
agreed to.
    The gentlemen from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. I thank my colleagues. I move that the 
Chairman be requested to seek consideration of the pending 
resolution on the suspension calendar.
    Chairman Gilman. The question as amended.
    The question is on the motion of the gentleman from 
Nebraska.
    As many in favor of the motion, signify by saying aye.
    Opposed.
    The ayes have it and the motion is agreed to.
    Further proceedings on this measure are postponed.
    The Committee is adjourned. Thank you, gentleman.
    [Whereupon, at 7 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            November 9, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T4099.001
    
    [GRAPHIC] [TIFF OMITTED] T4099.002
    
    [GRAPHIC] [TIFF OMITTED] T4099.003
    
    [GRAPHIC] [TIFF OMITTED] T4099.004
    
    [GRAPHIC] [TIFF OMITTED] T4099.005
    
    [GRAPHIC] [TIFF OMITTED] T4099.006
    
    [GRAPHIC] [TIFF OMITTED] T4099.007
    
    [GRAPHIC] [TIFF OMITTED] T4099.008
    
    [GRAPHIC] [TIFF OMITTED] T4099.009
    
    [GRAPHIC] [TIFF OMITTED] T4099.010
    
    [GRAPHIC] [TIFF OMITTED] T4099.011
    
    [GRAPHIC] [TIFF OMITTED] T4099.012
    
    [GRAPHIC] [TIFF OMITTED] T4099.013
    
    [GRAPHIC] [TIFF OMITTED] T4099.014
    
    [GRAPHIC] [TIFF OMITTED] T4099.015
    
    [GRAPHIC] [TIFF OMITTED] T4099.016
    
    [GRAPHIC] [TIFF OMITTED] T4099.017
    
    [GRAPHIC] [TIFF OMITTED] T4099.018
    
    [GRAPHIC] [TIFF OMITTED] T4099.019
    
    [GRAPHIC] [TIFF OMITTED] T4099.020
    
    [GRAPHIC] [TIFF OMITTED] T4099.021
    
    [GRAPHIC] [TIFF OMITTED] T4099.022
    
    [GRAPHIC] [TIFF OMITTED] T4099.023
    
    [GRAPHIC] [TIFF OMITTED] T4099.024
    
    [GRAPHIC] [TIFF OMITTED] T4099.025
    
    [GRAPHIC] [TIFF OMITTED] T4099.026
    
    [GRAPHIC] [TIFF OMITTED] T4099.027
    
    [GRAPHIC] [TIFF OMITTED] T4099.028
    
    [GRAPHIC] [TIFF OMITTED] T4099.029
    
    [GRAPHIC] [TIFF OMITTED] T4099.030
    
    [GRAPHIC] [TIFF OMITTED] T4099.031
    
    [GRAPHIC] [TIFF OMITTED] T4099.032
    
    [GRAPHIC] [TIFF OMITTED] T4099.033
    
    [GRAPHIC] [TIFF OMITTED] T4099.034
    
    [GRAPHIC] [TIFF OMITTED] T4099.035
    
    [GRAPHIC] [TIFF OMITTED] T4099.036
    
    [GRAPHIC] [TIFF OMITTED] T4099.037
    
    [GRAPHIC] [TIFF OMITTED] T4099.038
    
    [GRAPHIC] [TIFF OMITTED] T4099.039
    
    [GRAPHIC] [TIFF OMITTED] T4099.040
    
    [GRAPHIC] [TIFF OMITTED] T4099.041
    
    [GRAPHIC] [TIFF OMITTED] T4099.042
    
    [GRAPHIC] [TIFF OMITTED] T4099.043
    
    [GRAPHIC] [TIFF OMITTED] T4099.044
    
    [GRAPHIC] [TIFF OMITTED] T4099.045
    
    [GRAPHIC] [TIFF OMITTED] T4099.046
    
    [GRAPHIC] [TIFF OMITTED] T4099.047
    
    [GRAPHIC] [TIFF OMITTED] T4099.048
    
    [GRAPHIC] [TIFF OMITTED] T4099.049
    
    [GRAPHIC] [TIFF OMITTED] T4099.050
    
    [GRAPHIC] [TIFF OMITTED] T4099.051
    
    [GRAPHIC] [TIFF OMITTED] T4099.052
    
    [GRAPHIC] [TIFF OMITTED] T4099.053
    
    [GRAPHIC] [TIFF OMITTED] T4099.054
    
    [GRAPHIC] [TIFF OMITTED] T4099.055
    
    [GRAPHIC] [TIFF OMITTED] T4099.056
    
    [GRAPHIC] [TIFF OMITTED] T4099.057
    
    [GRAPHIC] [TIFF OMITTED] T4099.058
    
    [GRAPHIC] [TIFF OMITTED] T4099.059
    
    [GRAPHIC] [TIFF OMITTED] T4099.060
    
    [GRAPHIC] [TIFF OMITTED] T4099.061
    
    [GRAPHIC] [TIFF OMITTED] T4099.062
    
    [GRAPHIC] [TIFF OMITTED] T4099.063
    
    [GRAPHIC] [TIFF OMITTED] T4099.064
    
    [GRAPHIC] [TIFF OMITTED] T4099.065
    
    [GRAPHIC] [TIFF OMITTED] T4099.066
    
    [GRAPHIC] [TIFF OMITTED] T4099.067
    
    [GRAPHIC] [TIFF OMITTED] T4099.068
    
    [GRAPHIC] [TIFF OMITTED] T4099.069
    
    [GRAPHIC] [TIFF OMITTED] T4099.070
    
    [GRAPHIC] [TIFF OMITTED] T4099.071
    
    [GRAPHIC] [TIFF OMITTED] T4099.072
    
    [GRAPHIC] [TIFF OMITTED] T4099.073
    
    [GRAPHIC] [TIFF OMITTED] T4099.074
    
    [GRAPHIC] [TIFF OMITTED] T4099.075
    
    [GRAPHIC] [TIFF OMITTED] T4099.076
    
    [GRAPHIC] [TIFF OMITTED] T4099.077
    
    [GRAPHIC] [TIFF OMITTED] T4099.078
    
    [GRAPHIC] [TIFF OMITTED] T4099.079
    
    [GRAPHIC] [TIFF OMITTED] T4099.080
    
    [GRAPHIC] [TIFF OMITTED] T4099.081
    
    [GRAPHIC] [TIFF OMITTED] T4099.082
    
    [GRAPHIC] [TIFF OMITTED] T4099.083
    
    [GRAPHIC] [TIFF OMITTED] T4099.084
    
    [GRAPHIC] [TIFF OMITTED] T4099.085
    
    [GRAPHIC] [TIFF OMITTED] T4099.086
    
    [GRAPHIC] [TIFF OMITTED] T4099.087
    
    [GRAPHIC] [TIFF OMITTED] T4099.088
    
    [GRAPHIC] [TIFF OMITTED] T4099.089
    
    [GRAPHIC] [TIFF OMITTED] T4099.090
    
    [GRAPHIC] [TIFF OMITTED] T4099.091
    
    [GRAPHIC] [TIFF OMITTED] T4099.092
    
    [GRAPHIC] [TIFF OMITTED] T4099.093
    
    [GRAPHIC] [TIFF OMITTED] T4099.094
    
    [GRAPHIC] [TIFF OMITTED] T4099.095
    
    [GRAPHIC] [TIFF OMITTED] T4099.096
    
    [GRAPHIC] [TIFF OMITTED] T4099.097
    
    [GRAPHIC] [TIFF OMITTED] T4099.098
    
    [GRAPHIC] [TIFF OMITTED] T4099.099
    
    [GRAPHIC] [TIFF OMITTED] T4099.100
    
    [GRAPHIC] [TIFF OMITTED] T4099.101
    

</pre></body></html>
